<html>
<title> - NO CHILD LEFT BEHIND: IMPROVING RESULTS FOR CHILDREN WITH DISABILITIES</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
NO CHILD LEFT BEHIND: IMPROVING RESULTS FOR CHILDREN WITH DISABILITIES

=======================================================================


                                HEARING

                               before the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             March 3, 2004

                               __________

                           Serial No. 108-45

                               __________

  Printed for the use of the Committee on Education and the Workforce



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
            Committee address: http://edworkforce.house.gov





                 U.S. GOVERNMENT PRINTING OFFICE

92-309                 WASHINGTON : 2004
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866)512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
Washington, DC 20402-0001




                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN A. BOEHNER, Ohio, Chairman

Thomas E. Petri, Wisconsin, Vice     George Miller, California
    Chairman                         Dale E. Kildee, Michigan
Cass Ballenger, North Carolina       Major R. Owens, New York
Peter Hoekstra, Michigan             Donald M. Payne, New Jersey
Howard P. ``Buck'' McKeon,           Robert E. Andrews, New Jersey
    California                       Lynn C. Woolsey, California
Michael N. Castle, Delaware          Ruben Hinojosa, Texas
Sam Johnson, Texas                   Carolyn McCarthy, New York
James C. Greenwood, Pennsylvania     John F. Tierney, Massachusetts
Charlie Norwood, Georgia             Ron Kind, Wisconsin
Fred Upton, Michigan                 Dennis J. Kucinich, Ohio
Vernon J. Ehlers, Michigan           David Wu, Oregon
Jim DeMint, South Carolina           Rush D. Holt, New Jersey
Johnny Isakson, Georgia              Susan A. Davis, California
Judy Biggert, Illinois               Betty McCollum, Minnesota
Todd Russell Platts, Pennsylvania    Danny K. Davis, Illinois
Patrick J. Tiberi, Ohio              Ed Case, Hawaii
Ric Keller, Florida                  Raul M. Grijalva, Arizona
Tom Osborne, Nebraska                Denise L. Majette, Georgia
Joe Wilson, South Carolina           Chris Van Hollen, Maryland
Tom Cole, Oklahoma                   Tim Ryan, Ohio
Jon C. Porter, Nevada                Timothy H. Bishop, New York
John Kline, Minnesota
John R. Carter, Texas
Marilyn N. Musgrave, Colorado
Marsha Blackburn, Tennessee
Phil Gingrey, Georgia
Max Burns, Georgia

                    Paula Nowakowski, Staff Director
                 John Lawrence, Minority Staff Director
                                 ------                                



                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on March 3, 2004....................................     1

Statement of Members:
    Boehner, Hon. John A., a Representative in Congress from the 
      State of Ohio..............................................     2
        Prepared statement of....................................     3
    Miller, Hon. George, a Representative in Congress from the 
      State of California........................................     4
    Norwood, Hon. Charlie, a Representative in Congress from the 
      State of Georgia...........................................    47
    Porter, Hon. Jon C., a Representative in Congress from the 
      State of Nevada............................................    48

Statement of Witnesses:
    Durkin, Dr. Pia, Superintendent of Schools, Narragansett 
      School System, Narragansett, Rhode Island..................    14
        Prepared statement of....................................    16
    Rhyne, Dr. Jane, Assistant Superintendent for Exceptional 
      Children, Charlotte-Mecklenburg Schools, Charlotte, North 
      Carolina...................................................    11
        Prepared statement of....................................    13
    Sabia, Ricki, Parent and Associate Director of Public Policy, 
      National Down Syndrome Society.............................     6
        Prepared statement of....................................     8
    Thurlow, Dr. Martha, Director, National Center on Education 
      Outcomes, University of Minnesota..........................    17
        Prepared statement of....................................    19

Additional materials supplied:
    American Federation of Teachers, Statement submitted for the 
      record.....................................................    41
    American Occupational Therapy Association, Statement 
      submitted for the record...................................    49
    Johnston, Rosemary King, Member, National Education 
      Association, Statement submitted for the record............    54
    National Center for Learning Disabilities, Statement 
      submitted for the record...................................    51


 NO CHILD LEFT BEHIND: IMPROVING RESULTS FOR CHILDREN WITH DISABILITIES

                              ----------                              


                        Wednesday, March 3, 2004

                     U.S. House of Representatives

                Committee on Education and the Workforce

                             Washington, DC

                              ----------                              

    The Committee met, pursuant to notice, at 10:20 a.m., in 
room 2175, Rayburn House Office Building, Hon. John Boehner 
(Chairman of the Committee) presiding.
    Present: Representatives Boehner, McKeon, Johnson, Norwood, 
Ehlers, Biggert, Platts, Tiberi, Osborne, Kline, Carter, 
Blackburn, Gingrey, Burns, Miller, Kildee, Payne, Andrews, 
Tierney, Kind, Wu, Holt, McCollum, Grijalva, Majette, Van 
Hollen, and Bishop.
    Staff present: David Cleary, Professional Staff Member; 
Amanda Farris, Professional Staff Member; Kevin Frank, 
Professional Staff Member; Melanie Looney, Professional Staff 
Member; Sally Lovejoy, Director of Education and Human 
Resources Policy; Krisann Pearce, Deputy Director of Education 
and Human Resources Policy; Deborah L. Samantar, Committee 
Clerk/Intern Coordinator; Jo-Marie St. Martin, General Counsel; 
Liz Wheel, Legislative Assistant; Alice Cain, Minority 
Legislative Associate/Education; Tom Kiley, Minority Press 
Secretary; John Lawrence, Minority Staff Director; Alex Nock, 
Minority Legislative Associate/Education; and Joe Novotny, 
Minority Legislative Staff/Education.
    Chairman Boehner. A quorum being present, the Committee on 
Education and the Workforce will come to order. We're having 
problems with our chairs. We got new chairs over the break, and 
we're still trying to figure out how to adjust them. So if you 
see us disappear, it's by accident.
    [Laughter.]
    Chairman Boehner. We're holding this hearing today to hear 
testimony on ``No Child Left Behind: Improving Results for 
Children with Disabilities.'' Under Committee Rule 12(b), 
opening statements are limited to the Chairman and Ranking 
Member. If other Members have written statements, they may be 
included in the hearing record. And with that, I ask unanimous 
consent for the hearing record to remain open for 14 days to 
allow Member statements and other extraneous material referred 
to today during this hearing to be submitted in the official 
record.
    Without objection, so ordered.

   STATEMENT OF HON. JOHN A. BOEHNER, CHAIRMAN, COMMITTEE ON 
                  EDUCATION AND THE WORKFORCE

    Chairman Boehner. Good morning, everyone. I'm pleased to 
welcome our guests, witnesses, and Members to this morning's 
hearing. We're looking forward to the comments from our 
witnesses and the insight that you'll provide on the importance 
of including students with disabilities in state accountability 
systems under No Child Left Behind legislation.
    I'm also pleased to announce that this morning's full 
Committee hearing is another in the continuing series we are 
holding to examine state and local progress in implementing No 
Child Left Behind.
    I want to thank Mr. Miller and his staff for agreeing to 
work in a bipartisan manner on this hearing. I'm certain that 
if we continue to work together, we can ensure improved 
educational opportunities for all of our nation's students.
    As many of you know, No Child Left Behind plays a vital 
role in ensuring that children with special needs receive the 
high quality education that they deserve, while providing 
states and local school districts significant flexibility to 
achieve this goal. Working in conjunction with IDEA, NCLB 
represents a truly monumental shift in the way we perceive 
students with disabilities and how they fit into state 
accountability and assessment systems to ensure that all 
students are learning.
    The question of whether to include students with 
disabilities in state-developed accountability systems received 
significant attention during the congressional consideration of 
NCLB. After a great deal of discussion, we reached a bipartisan 
consensus that NCLB should ensure that all students can learn 
and schools should be held accountable for the academic 
progress of all children. A student with disabilities should 
not be discounted simply because he or she does not learn at 
the same rate or in the same manner as other students.
    Among the greatest benefits of NCLB are increased 
expectations. For the first time in history, we are holding 
school districts accountable for the annual progress of all of 
their students, including students with disabilities. 
Disability does not mean inability, and through NCLB we are 
confronting the misconception that students with disabilities 
cannot learn.
    While this is truly a victory for students with 
disabilities, it is also a challenge for states and schools. 
And we recognize there are significant pressures surrounding 
the inclusion of students with disabilities in state 
accountability systems. To rise to meet this challenge, we must 
ensure states, districts, schools and the Federal Government 
are working together to provide students with disabilities 
increased opportunities for academic achievement.
    And I'm pleased by the efforts of the Department of 
Education and what they have done in the past months to provide 
states and school districts with needed flexibility to 
appropriately include all students with disabilities in state 
accountability systems. The new regulation allows 1 percent of 
all students--roughly 10 percent of students nationwide in 
special ed--to take an alternative assessment aligned to 
alternate standards. This is an important step in ensuring that 
states and local districts have the necessary flexibility to 
respond to a child's individualized education program while 
still meeting the requirements of No Child Left Behind.
    In addition, I'm also encouraged by Secretary Paige's 
recent letter to state officials outlining the procedure for 
states and local districts to apply for additional flexibility 
under the regulation. And I'm optimistic that the department's 
efforts will ensure that students with disabilities are 
appropriately included in state-developed assessment systems.
    Finally, I think it's important to point out that a child's 
individualized education program dictates how a child is 
assessed, and not whether a child is assessed. Since 1997, IDEA 
has required that students with disabilities be included in 
general education system and the assessment system as 
appropriate for the individual child. NCLB works in unison with 
the requirements of IDEA by ensuring students with disabilities 
are included in these assessment systems.
    We remain committed to the importance of including students 
with disabilities in the accountability and assessment systems 
of No Child Left Behind, while continuing to ensure that the 
system works fairly for all involved. And the testimony we 
expect today is vital to that task, and we look forward to 
hearing from each of our witnesses today.
    Let me yield to my friend and colleague and partner in this 
effort, George Miller.
    [The statement of Chairman Boehner follows:]

Statement of Hon. John A. Boehner, Chairman, Committee on Education and 
                             the Workforce

    Good morning. I'm pleased to welcome our guests, witnesses, and 
members to this morning's hearing. We are looking forward to your 
comments, and the insight you will provide on the importance of 
including students with disabilities in state accountability systems 
under the historic No Child Left Behind (NCLB) legislation.
    I'm also pleased to announce that this morning's full committee 
hearing is another in the continuing series we are holding to examine 
state and local progress in implementing NCLB. I would like to thank 
Mr. Miller and his staff for agreeing to work in a bipartisan manner on 
this hearing. I'm certain that if we continue to work together we can 
ensure improved educational opportunities for all of our nation's 
students.
    As many of you know, NCLB plays a vital role in ensuring children 
with special needs receive the high-quality education they deserve, 
while providing states and local school districts significant 
flexibility to achieve this goal. Working in conjunction with the 
Individuals with Disabilities Education Act (IDEA), NCLB represents a 
truly monumental shift in the way we perceive students with 
disabilities and how they fit into state accountability and assessment 
systems to ensure all students are learning.
    The question of whether to include students with disabilities in 
state-developed accountability systems received significant attention 
during congressional consideration of NCLB. After a great deal of 
discussion, we reached a bipartisan consensus that NCLB should ensure 
that all students can learn, and schools should be held accountable for 
the academic progress of all children. A student with disabilities 
should not be discounted simply because he or she does not learn at the 
same rate or in the same manner as other students.
    Among the greatest benefits of NCLB are increased expectations--for 
the first time in history, we are now holding school districts 
accountable for the annual progress of all their students, including 
students with disabilities. Disability does not mean inability. Through 
NCLB, we are confronting the misperception that students with 
disabilities can not learn.
    While this is truly a victory for students with disabilities, it is 
also a challenge for states and schools. We recognize there are 
significant pressures surrounding the inclusion of students with 
disabilities in state accountability systems. To rise to meet this 
challenge, we must ensure states, districts, schools, and the federal 
government are working together to provide students with disabilities 
increased opportunities for academic achievement.
    I'm pleased by the efforts the U.S. Department of Education has 
taken in past months to provide states and school districts with needed 
flexibility to appropriately include all students with disabilities in 
state accountability systems. The new regulation allows one percent of 
all students--roughly ten percent of students nationwide in special 
education--to take an alternate assessment aligned to alternate 
standards. This is an important step in ensuring states and local 
districts have the necessary flexibility to respond to a child's 
individualized education program (IEP) while still meeting the 
requirements of NCLB.
    In addition, I'm also encouraged by Secretary Paige's recent letter 
to state officials outlining the procedure for states and local school 
to apply for additional flexibility under this regulation. I'm 
optimistic that the Department's efforts will ensure students with 
disabilities are appropriately included in state-developed assessment 
systems.
    Finally, I think it is important to point out that a child's 
individualized education program dictates how a child is assessed--not 
whether a child is assessed. Since 1997, IDEA has required that 
students with disabilities be included in the general education system 
and the assessment system, as appropriate for the individual child. 
NCLB works in unison with the requirements of IDEA, by ensuring 
students with disabilities are included in state accountability 
systems.
    We remain committed to the importance of including students with 
disabilities in the accountability and assessment systems of NCLB, 
while continuing to ensure that the system works fairly for all 
involved. Your testimony is vital to that task, and we look forward to 
hearing from each of you today.
    With that, I yield to my colleague from California, Mr. Miller.
                                 ______
                                 

 STATEMENT OF HON. GEORGE MILLER, RANKING MEMBER, COMMITTEE ON 
                  EDUCATION AND THE WORKFORCE

    Mr. Miller. Thank you, Mr. Chairman. I'm looking forward to 
today's hearing because it gets at the heart of what No Child 
Left Behind is about--making sure that children have a real 
opportunity to succeed to their full potential. Our witnesses 
have great expertise in working with children with 
disabilities, and I'm eager to hear from them about how the law 
is working for these children so far.
    No Child Left Behind tried to address a number of problems 
that plague children with disabilities over the years, problems 
like dropout rate that was twice that for children without 
disabilities, a low enrollment rate of students with 
disabilities in higher education, and the poor reading levels 
of children with disabilities.
    I have two basic questions about the impact of No Child 
Left Behind for our witnesses today. What is the impact of high 
expectations for students with disabilities on these students 
so far? And how are schools and teachers changing how they 
identify and teach children with disabilities? I'm particularly 
interested in how No Child Left Behind is affecting the 
longstanding problem of misidentification of children for 
special education.
    It is of great concern that children who may have different 
learning styles or simply need additional attention are 
labeled, or mislabeled, and may spend many years or even their 
whole lives achieving below their full potential. This problem 
is particularly severe for students of color who all too often 
are inappropriately identified as special education and placed 
in segregated settings rather than mainstream. The Harvard 
Civil Rights Project found that black students are more than 
twice as likely as white students to be labeled with an 
emotional or behavioral disorder in 29 states and twice as 
likely to be labeled mentally retarded in 39 states. This is 
not a problem of our children; it's a problem for our system.
    I am also interested in your feedback on the regulations 
that the Department of Education issued last December. What is 
the impact of the regulations that allow school districts to 
count alternative assessment scores of 1 percent of the 
students with the most severe cognitive disabilities toward 
AYP?
    Experts have pushed us for years on the importance of 
setting high expectations for children with disabilities, and 
that is exactly what No Child Left Behind did. It sent a 
message to our nation that every child counts. As the New York 
Times editorial reiterated the importance of this yesterday, 
stating that although the program needs more funds and better 
administration, No Child Left Behind is tackling one of the 
nation's most critical problems--the substandard educational 
opportunities offered to poor and minority children, and I 
would add in many instances to disabled children. But the Times 
also mentioned that some in Congress are eager to jump ship on 
No Child Left Behind. I believe that that would be a huge 
mistake for poor and minority children, and I think it would be 
a huge mistake for the best interests of the disabled 
community.
    Now is not the time to turn our backs on children with 
disabilities. No Child Left Behind makes the achievement of 
these children an essential component of the success of our 
schools. We can and we must do everything we can to ensure that 
no child with disabilities is ever again left behind.
    Thank you, Mr. Chairman.
    Chairman Boehner. Thank you, Mr. Miller. Let me introduce 
our witnesses. Our first witness today will be Ms. Ricki Sabia. 
Ms. Sabia is the mother of David and Stephen Sabia and knows 
firsthand the issues involved with raising a child with a 
disability. Additionally, she is the Associate Director of 
Public Policy for the National Down Syndrome Society, and prior 
to her current position, she served as the intake coordinator 
for the Maryland Coalition for Inclusive Education.
    Ms. Sabia is also the co-chair for the Montgomery County 
Public Schools Continuous Improvement Team, whose mission is to 
assist in improving the quality of instruction in education of 
students with disabilities.
    Welcome.
    The next witness will be Dr. Jane Rhyne. And Dr. Rhyne 
serves as the Assistant Superintendent for Programs for 
Exceptional Children for the Charlotte-Mecklenburg School 
system. And prior to her current position, she served in this 
district in various capacities as assistant principal, 
principal, and the Coordinating Director for Programs for 
Exceptional Children.
    Dr. Rhyne has also been an adjunct professor at Queens 
College and Appalachian State University.
    She will be followed by Dr. Pia Durkin. Dr. Durkin is 
currently the superintendent of the Narragansett School System. 
Previously she served as the Assistant Superintendent for 
Unified Student Services at Boston Public Schools. 
Additionally, Dr. Durkin has worked as a special ed director at 
Boston Public Schools and Providence Public Schools. She is a 
member of various organizations, including the American 
Association of School Administrators and Urban Special 
Education Collaborative.
    And our last witness will be Ms. Martha Thurlow. Dr. 
Thurlow is the Director of the National Center on Educational 
Outcomes at the University of Minnesota, where she evaluates 
and addresses the implications of U.S. policy for students with 
disabilities.
    For the past 25 years, she has conducted research on 
special ed on a variety of topics, including assessment and 
decisionmaking, learning disabilities and early childhood 
education.
    Dr. Thurlow is the author of numerous articles, book 
chapters, and books, and is the co-editor of Exceptional 
Children, a research journal by the Council for Exceptional 
Children.
    We're going to hear from all four of our witnesses, and 
Members will then ask questions. And with that, Ms. Sabia, you 
may begin.

STATEMENT OF RICKI SABIA, ASSOCIATE DIRECTOR OF PUBLIC POLICY, 
NATIONAL DOWN SYNDROME SOCIETY AND CO-CHAIR, SPECIAL EDUCATION 
    CONTINUOUS IMPROVEMENT TEAM, MONTGOMERY COUNTY, MARYLAND

    Ms. Sabia. Thank you. Good morning, Chairman Boehner, 
Congressman Miller, and Members of the Committee. As you said, 
I am here wearing three hats, first and foremost as the mother 
of David and Stephen Sabia. I am also here as Associate 
Director of Public Policy for the National Down Syndrome 
Society, and as the Co-Chair of the Special Education 
Continuous Improvement Team in Montgomery County.
    My son, Stephen, the handsome young man sitting behind us 
over there with my husband, is a fifth grade student at 
Cloverly Elementary School in Silver Spring, Maryland. He also 
happens to have Down Syndrome. After some initial battles and 
with persistent advocacy, we have been able to keep Stephen 
fully included in the regular education classes since 
kindergarten. He has always taken the regular assessments with 
accommodations and has surprised everyone by doing quite well.
    The gift that NCLB has given students with disabilities is 
the expectation that they can all learn and achieve. IDEA is 
also very important because it gives individual parents the 
right to advocate on behalf of their child through the IEP and 
due process provisions.
    Fortunately, my husband and I were in the position to 
successfully advocate for access to the general education 
curriculum, highly qualified teachers and high expectations 
prior to NCLB. But what about the children whose parents 
weren't in a similar position? Now NCLB mandates all these 
things for every child. Students with disabilities will finally 
be able to live up to their full potential when IDEA and the 
accountability provisions of NCLB are fully implemented and 
working in concert.
    This is what we all want for our children: The tools to 
maximize their potential and the opportunities that come with 
that achievement.
    Next year Stephen transitions to middle school. Based on 
the past experiences of others, we expected to have resistance 
to keeping him fully included in regular classes. Much to our 
surprise, attitudes really had changed considerably since NCLB.
    In my job as Associate Director of Public Policy for the 
National Down Syndrome Society, I have been helping parents and 
others to distinguish between the myths and facts related to 
NCLB. The two most prevalent myths are that NCLB requires a 
one-size-fits-all assessment and that students with 
disabilities cannot be expected to demonstrate proficiency on 
the assessment.
    In response to the ``one-size-fits-all'' myth, I want to 
point out that there are many different assessment options 
available under NCLB. There are the regular grade level 
assessments taken with or without a variety of accommodations. 
There are assessments on grade level content that can be 
delivered in many formats. In addition, increased flexibility 
has been provided by the regulations for students with the most 
significant cognitive disabilities which permit alternate 
assessments on one or more alternate achievement standards.
    The development of universally designed assessments will 
further expand the range of students whose achievements can be 
accurately measured on any given assessment.
    A big obstacle in the implementation of NCLB is that many 
states and districts are focusing more resources on their 
efforts to weaken the accountability in NCLB than they are on 
promoting the development of a range of appropriate assessments 
that are allowed under NCLB. If the law seems one-size-fits-
all, it's not a problem with NCLB; it's the failure to design 
and develop appropriate assessments. The variety of possible 
assessments is the reason why it is also a myth to say that 
students with disabilities cannot be expected to demonstrate 
proficiency under NCLB. Many students with disabilities are on 
a diploma track and should be expected to be proficient at 
grade level. This is true for students without cognitive 
disabilities, but it is also true for students with mild 
cognitive disabilities. As we said already, the students with 
more significant cognitive disabilities can demonstrate 
proficiency on alternate standards.
    When I became co-chair of the Special Ed Continuous 
Improvement Team in Montgomery County in 1999, we found that 
most of the data was not disaggreated for students with 
disabilities. It was a struggle to collect any data at all on 
some of our quality indicators. Since NCLB and its mandate for 
data disaggregation, the work of our Committee has been greatly 
facilitated.
    Clearly, there will be many struggles as school systems 
grapple with the requirements of NCLB, and it is important that 
we ensure adequate funding. Curriculum, instructional materials 
and assessments will need to be universally designed for use by 
the broadest range of students. Access to the general ed 
curriculum will need to be improved. Data systems will need 
redesigning, and to allow for disaggregation as well as 
additional data collection for example on post-secondary 
outcomes. As a result of struggling with these growing pains, 
we will have a more effective, efficient and equitable 
educational system. I think it's worth the struggle.
    In closing, I urge you to preserve the accountability for 
students with disabilities in NCLB and to focus your efforts on 
the issues related to improved implementation.
    Thank you for the opportunity to speak here today.
    [The prepared statement of Ms. Sabia follows:]

   Statement of Ricki Sabia, Parent and Associate Director of Public 
                 Policy, National Down Syndrome Society

    My name is Ricki Sabia and I am wearing three hats today. First and 
foremost I am here as the mother of David and Stephen Sabia. I am also 
here as the Associate Director of Public Policy for the National Down 
Syndrome Society (NDSS) and as the co-chair of the Special Education 
Continuous Improvement Team in Montgomery County, Maryland.
    My son Stephen Sabia is a fifth grade student at Cloverly ES in 
Silver Spring Maryland. He also has Down syndrome. After some initial 
battles and with persistent advocacy, we have been able to keep Stephen 
fully included in his neighborhood school since kindergarten. He has 
always taken the regular assessments with accommodations and has 
surprised everyone by doing quite well.
    The gift that NCLB has given students with disabilities is the 
expectation that they can all learn and achieve. IDEA is also very 
important because it gives individual parents the right to advocate on 
behalf of their child through the IEP and due process provisions. 
Fortunately, we were in the position to successfully advocate for 
access to the general education curriculum, highly qualified teachers 
and high expectations before NCLB, but what about the children whose 
parents were not in a similar position.
    Now, NCLB mandates all these things for every child. Students with 
disabilities will finally be able to live up to their potential when 
IDEA and the accountability provisions of NCLB are fully implemented 
and working in concert. This is what we all want for our children, the 
tools to maximize their potential and the opportunities that come with 
that achievement.
    Next year Stephen transitions to middle school. Based on the past 
experiences of others, we expected to face resistance to keeping him 
fully included in regular education classes. Much to our surprise, 
attitudes really had changed considerably since NCLB.
    In my job as Associate Director of Public Policy for the National 
Down Syndrome Society, I have been helping parents, and others, to 
distinguish between the myths and facts related to NCLB. I have 
attached a copy of the NDSS press release and the Myths and Facts 
document to this testimony. The two most prevalent myths are that NCLB 
requires a ``one size fits all assessment'' and that students with 
disabilities can not be expected to demonstrate proficiency on the 
assessments.
    In response to the ``one size fits all'' myth, I want to point out 
that there are many different assessment options available under NCLB. 
There are the regular grade level assessments taken with or without a 
variety of accommodations, there are assessments on grade level content 
that can be given in alternate formats. In addition, increased 
flexibility has been provided by the regulations for students with the 
most significant cognitive disabilities, which permit alternate 
assessments on one or more alternate achievement standards. The 
development of universally designed assessments will further expand the 
range of students whose achievement can be accurately measured on any 
given assessment.
    A big obstacle right now in the implementation of NCLB, is that 
many states and districts are focusing more resources on efforts to 
weaken the accountability in NCLB than they are on promoting the 
development of a range of appropriate assessment options. If NCLB seems 
``one size fits all'' it is not a problem with the law, it is a failure 
to design and develop appropriate assessments.
    The variety of possible assessments is the reason why it is also a 
myth to say that students with disabilities can not be expected to 
demonstrate proficiency under NCLB. The fact that a child has a 
disability does not mean that he or she can not demonstrate grade level 
proficiency with the appropriate accommodations or with an alternate 
means of administering the assessment. Many students with disabilities 
are on a diploma track and should be expected to be proficient at grade 
level. This is true for students without cognitive disabilities, as 
well as for students with mild cognitive disabilities. Students with 
significant cognitive disabilities are permitted to demonstrate 
proficiency using an alternate achievement standard. Without high 
expectations we condemn these students to the self-fulfilling prophecy 
of low achievement.
    When I became co-chair of the Continuous Improvement Team in 1999, 
we found that most of the data was not disaggregated for students with 
disabilities. It was a struggle to collect any data at all on some of 
our quality indicators. Since NCLB and its mandate for data 
disaggregation, the work of our committee has been greatly facilitated. 
Now we can acquire the data we need to monitor for continuous 
improvement.
    Clearly there will be many struggles as school systems grapple with 
the requirements of NCLB and it will be important to ensure that there 
is adequate funding. Curriculum, instructional materials and 
assessments will have to be universally designed for use by the 
broadest possible range of students. Access to the general education 
curriculum will need to be improved. Data systems will have to be 
redesigned for disaggregation of data and for the collection of 
additional data like post-secondary outcomes. As a result of struggling 
with these growing pains, we will have a more effective, efficient and 
equitable education system. I think it is worth the struggle.
    In closing, I urge you to preserve the accountability for students 
with disabilities in NCLB and to focus your efforts on the issues 
related to improved implementation.

  PARENTS URGE CONGRESS NOT TO LEAVE BEHIND STUDENTS WITH DISABILITIES

ACCOUNTABILITY WILL IMPROVE EDUCATIONAL OUTCOMES FOR THESE STUDENTS
February 25, 2004

    New York, NY--The National Down Syndrome Society (NDSS) continues 
to support accountability for students with disabilities under NCLB. It 
is critical that the accountability in both NCLB and the Individuals 
with Disabilities Education Act (IDEA) be preserved in order to improve 
educational outcomes for students with disabilities.
    Students with disabilities have a right to the ``systemic'' 
accountability required by NCLB. IDEA focuses on the individual and 
NCLB focuses on group accountability. Together these laws provide the 
full range of accountability that students with disabilities need. 
Families can use the Individualized Education Program (IEP) to improve 
their child's education. This is why NDSS has expressed significant 
concern about provisions we believe would weaken the IEP, due process 
and discipline provisions in the IDEA reauthorization bills. However 
IDEA does not provide a mechanism for accountability at the state, 
district and school level for students with disabilities as a subgroup. 
NCLB requires this ``systemic'' accountability. It is important to make 
changes child by child through the IEP process. However, there are many 
reforms that need to happen for all students with disabilities and this 
can be achieved more efficiently through the systemic accountability in 
NCLB.
    NCLB is not ``one size fits all.'' Opponents of NCLB suggest that 
it requires proficiency on a ``one size fits all'' assessment. ``To the 
contrary, there are many different assessment options available under 
NCLB,'' responds Ricki Sabia, Associate Director of Public Policy NDSS. 
``In fact, additional flexibility has been provided by the regulations 
for students with the most significant cognitive disabilities, which 
were released on December 9, 2003.'' The development of universally 
designed assessments is critical.
    Students with disabilities can demonstrate proficiency under NCLB. 
The fact that a child has a disability does not mean that he or she can 
not demonstrate grade level proficiency with the appropriate 
accommodations or with an alternate means of administering the 
assessment. Many students with disabilities are on a diploma track and 
should be expected to be proficient at grade level. This is true for 
students without cognitive disabilities and for students whose 
cognitive disabilities are mild. Students with significant cognitive 
disabilities are permitted to demonstrate proficiency on assessments 
based on an alternate achievement standard.
    Both NCLB and IDEA must remain strong. NDSS asserts that the best 
way to improve Adequate Yearly Progress (AYP) for students with 
disabilities is to fully implement IDEA. In addition, the ``best 
practices'' identified b y NCLB's assessments will improve the quality 
of the services delivered through the IEP. NDSS urges Congress to 
preserve accountability in both NCLB and IDEA. Children with 
disabilities and their families are counting on you.

                         NCLB - MYTHS AND FACTS

    <bullet>  Myth: NCLB punishes ``failing schools.''
       Facts: Schools that do not make AYP for two consecutive years 
are identified as ``needing improvement'' and are given help, not 
punishment. NCLB never labels schools as ``failing.'' A school may have 
a great reputation because most of its students are achieving at a high 
level. However, if one subgroup at the school does not make AYP it is 
fair to say that even a great school ``needs improvement.'' These 
schools do not lose federal funding; in fact they are eligible for 
additional support. If a school continuously does not meet AYP there 
eventually is a possibility that the state will take over the operation 
of the school, but that is only one of a number of possible 
alternatives.

    <bullet>  Myth: Students with disabilities can't be expected to 
attain proficiency.
       Facts: This myth represents the low expectations that NCLB is 
trying to extinguish. Most students with disabilities are on a diploma 
track and with appropriate accommodations and instruction should be 
able to attain proficiency on grade level assessments. In addition, 
students with the most significant cognitive disabilities can take 
alternate assessments based on alternate achievement standards and 
should be able to attain proficiency as measured in this manner. In 
order to help more students reach proficiency there will need to be 
greater access to the general education curriculum in the least 
restrictive environment. The teachers must be qualified in the subject 
areas they are expected to teach. It will also be important to develop 
universally designed assessments that are not invalidated by 
accommodations and are appropriate for widest possible range of 
students.I21
    <bullet>  Myth: NCLB requires proficiency on a ``one size fits all 
assessment.''
       Facts: Under NCLB, students with disabilities can take the 
regular assessments, with or without accommodations, or they can take 
an alternate assessment based on grade level achievement standards or 
alternate achievement standards. States have the flexibility to have a 
number of different alternate assessments and a number of different 
alternate achievement standards. This is not a ``one size fits all'' 
situation.

    <bullet>  Myth: High performing schools are not making AYP because 
of the scores of a few students with disabilities.
       Facts: It takes more than the scores of a few students with 
disabilities to cause a school not to make AYP. In fact, the 
accommodations on the grade-level assessments and the availability of 
for students with the most significant cognitive disabilities level the 
playing field so many of these students receive proficient scores. Even 
if students with disabilities are doing poorly the ``n'' factor'' and 
the safe rule will often prevent these scores from affecting AYP, at 
least at the school level. If a large subgroup of students with 
disabilities does not meet AYP it may mean the school will be 
identified as needing improvement, even if all the other students are 
proficient. That is the point of NO Child Left Behind; a school has to 
help all its students get an education.

    <bullet>  Myth: All students with cognitive disabilities should 
take an alternate assessment based on alternate achievement standards.
       Facts: The regulation permitting proficient and advanced scores 
from these alternate assessments to be used to calculate AYP refers to 
students with the most significant cognitive disabilities. This clearly 
doesn't mean all students with cognitive disabilities. With the 
appropriate accommodations, many students with cognitive disabilities 
should be able to take a universally designed grade-level assessment or 
a grade-level alternate assessment. Since the 1% rule is generous 
enough to allow most states to place all students with cognitive 
disabilities in an assessment based on an alternate standard, it is 
left up to parents to ensure that the IEP team places their child in 
the appropriate assessment.

    <bullet>  Myth: NCLB causes excessive federal intrusion into state 
education policy.
       Facts: There is a tremendous amount of state flexibility built 
into NCLB. Except for the general requirement of a state accountability 
plan that measures AYP and the requirement for highly qualified 
teachers, most of NCLB applies only to schools receiving Title I funds. 
Otherwise, the provisions in state plans define accountability 
requirements. The diversity among the approved state plans is evidence 
of state flexibility.
       At http://www.ed.gov/news/pressreleases/2004/01/01142004.html 
there is a ten page document discussing the many options each state can 
choose under NCLB.
                                 ______
                                 
    Chairman Boehner. I'm sure someone explained all the lights 
to you, but that's just a general guide. We're pretty nice 
here, so.
    [Laughter.]
    Chairman Boehner. As long as you don't get too carried 
away. If you do, I'll let you know.
    Dr. Rhyne?

STATEMENT OF JANE RHYNE, ASSISTANT SUPERINTENDENT, PROGRAMS FOR 
  EXCEPTIONAL CHILDREN, CHARLOTTE-MECKLENBURG PUBLIC SCHOOLS, 
                   CHARLOTTE, NORTH CAROLINA

    Dr. Rhyne. Good morning, Mr. Chairman, Congressman Miller, 
and Members of the Committee. I am Jane Rhyne, Assistant 
Superintendent for Exceptional Children in the Charlotte-
Mecklenburg Schools.
    I am pleased to testify today on the inclusion of children 
with disabilities in the NCLB assessment and accountability 
system on behalf of our Superintendent Pughsley and the 
Charlotte-Mecklenburg Board of Education and the Council of 
Great City Schools.
    In our school district, I am responsible for over 13,000 
students with disabilities, and I provide leadership for them 
in program planning and implementation, curriculum and 
instruction, professional development for staff, and compliance 
with IDEA.
    It seemed almost natural for the Charlotte-Mecklenburg 
Schools to be a supporter of No Child Left Behind. From top to 
bottom, our school district prides itself on delivering a 
quality education for all of our students and measuring our 
achievement results.
    Our district enrolls 114,000 students grades K through 12. 
Forty-one percent of them are low income; 43 percent African 
American; 9 percent Hispanic; 4 percent Asian; 41 percent 
Caucasian; 8 percent limited English proficient; and 12 percent 
children with disabilities.
    Over the last decade, Charlotte-Mecklenburg, in 
collaboration with the state of North Carolina, implemented 
many of the cornerstone concepts embodied in NCLB, including 
disaggregated performance data, data-based decisionmaking, 
quality professional development and support, interventions in 
low performing schools, and accountability for subgroup as well 
as overall achievement. We were providing research-based 
instruction before the term was defined in Federal legislation.
    To validate and cross-check our state-tested academic 
progress, Charlotte-Mecklenburg volunteered, along with eight 
other urban school districts, to participate in the NAEP Trial 
Urban District Assessment, providing school district level NAEP 
results using a representative sample of students from each 
volunteering district. The Charlotte-Mecklenburg Schools 
students outperformed every other urban counterpart and also 
outperformed the national NAEP average in reading and math at 
the fourth and eighth grade levels.
    Though we had an early start on NCLB-type approaches, the 
Act provided us with a new set of challenges and truly, truly 
helped us refine and deepen our academic focus for all of our 
students. For students with disabilities, Charlotte-Mecklenburg 
has a multiyear strategic plan for implementing inclusive 
practices. I have seen firsthand in Charlotte-Mecklenburg and 
on technical assistance and site visits to other school 
districts that instructional attention to students with 
disabilities has been clearly heightened. Standards-based 
curriculum is being provided more often to a broader range of 
special education students. Teachers and principals are finding 
that many, many more children than they may have anticipated 
can make significant progress in the general curriculum when 
given the chance and provided with solid instructional 
approaches.
    As a result of NCLB, expectations have increased, and 
services are planned and delivered with greater care and 
inclusiveness, even in a progressive system like Charlotte-
Mecklenburg. Principals and teachers are far more focused on 
the academic progress of their exceptional students and the 
gains needed to make or maintain adequate yearly progress.
    Charlotte-Mecklenburg's data system supports our principals 
and teachers with up-to-date information and quarterly 
assessment of academic progress. Diagnostic information for 
each individual student helps the teacher select appropriate 
structured interventions based on identified student needs.
    This type of systematic attention to disadvantaged and 
disabled students is precisely what No Child Left Behind is 
helping to articulate. Special educators and parents welcome 
this instructional attention to students with disabilities. And 
I have seen the same reaction among teachers of English 
language learners and other disadvantaged children.
    One of the most recent revisions in our local 
accountability program has been to refine our bonus pay system 
for principals and all building staff to include not only 
academic performance of all children, but also NCLB Adequate 
Yearly Progress. With data provided to them, principals can 
gauge the progress of their schools, subgroups, classrooms and 
individual students to ensure focus on the achievement of all 
of the subgroups of students.
    Operationally, the recent Department of Education 
regulation on assessment of significantly cognitively disabled 
children will be helpful. However, the state of alternate 
assessment, including off-level assessment, continues to 
evolve. Because of the focused attention on students with 
disabilities resulting from NCLB, our schools, with district 
staff support, have reviewed assessments of all of our 
exceptional ed students. The result through IEP teams has been 
to appropriately reassign many students to their inclusion in 
on-grade level state-required assessments. Yet approximately 
1.5 percent of our special ed students have disabilities that 
prevent them from doing the same level of academic work as 
their age mates. These students should be assessed with some 
form of alternate academic assessment aligned with the North 
Carolina academic standards. As the district, state and nation 
continue to work through the challenges of NCLB, we are 
confident that the special needs of these students will also be 
met.
    Inclusion in accountability systems, however, is undermined 
in states proposing and being approved for minimum subgroup 
sizes for students with disabilities that are substantially 
larger than for low-income students, African-American students 
and others. It invites the manipulation of the NCLB 
accountability system and operationally allows some schools and 
some school districts to escape portions of subgroup 
accountability. As an urban educator and as a special educator, 
equity for our students is extremely important.
    For those of us in Charlotte-Mecklenburg and for our Great 
City School colleagues, No Child Left Behind is focused on the 
right children--those in greatest need of instructional 
attention and additional resources. For students with 
disabilities, the attention and accountability for results may 
be the most significant addition to Federal law in the last 
decade, and an appropriate complement to Section 504, IDEA and 
ADA.
    Thank you.
    [The statement of Dr. Rhyne follows:]

Statement of Jane Rhyne, Ph.D., Assistant Superintendent, Programs for 
       Exceptional Children, Charlotte-Mecklenburg Public Schools

    Good Morning Mr. Chairman, Congressman Miller and Members of the 
Committee.
    I am Jane Rhyne, Assistant Superintendent for Exceptional Children 
in the Charlotte-Mecklenburg Schools. I am pleased to testify today on 
the inclusion of children with disabilities in the NCLB assessment and 
accountability system on behalf of Superintendent Pughsley and the 
Charlotte-Mecklenburg Board of Education and the Council of the Great 
City Schools. In our school district, I am responsible for over 13,000 
students with disabilities and provide leadership for them in program 
planning and implementation, curriculum and instruction, professional 
development for school staff, and compliance with IDEA.
    It seemed almost natural for the Charlotte-Mecklenburg Schools to 
be a supporter of No Child Left Behind. From top to bottom our school 
district prides itself on delivering a quality education for all of our 
students and measuring our achievement results. Our district enrolls 
114,000 students K-12--41% low-income, 43% African American, 9% 
Hispanic, 4 % Asian, 41% Caucasian, 8% limited English proficient, and 
12% children with disabilities. Over the last decade, Charlotte-
Mecklenburg, in collaboration with the State of North Carolina, 
implemented many of the cornerstone concepts embodied in NCLB including 
disaggregated performance data, data-based decision making, quality 
professional development and support, interventions in low performing 
schools, and accountability for subgroup as well as overall 
achievement. We were providing research-based instruction before the 
term was defined in federal legislation.
    To validate and cross-check our state-tested academic progress, 
Charlotte-Mecklenburg volunteered along with eight other urban school 
districts to participate in the NAEP Trial Urban District Assessment, 
providing school district level NAEP results using a representative 
sample of students from each volunteering district. The Charlotte-
Mecklenburg Schools students outperformed our other urban counterparts 
and also outperformed the national NAEP average in reading and math at 
the 4th and 8th grade levels.
    Though we had an early start on NCLB-type approaches, the Act 
provided us with a new set of challenges and truly helped us refine and 
deepen our academic focus for all students. For students with 
disabilities, Charlotte-Mecklenburg has a multi-year strategic plan for 
implementing inclusive practices. I have seen first hand in Charlotte-
Mecklenburg and on technical assistance and site visits to other school 
districts that instructional attention to students with disabilities 
has been clearly heightened. Standards-based curriculum is being 
provided more often to a broader range of special education students. 
Teachers and principals are finding that many more children, than they 
may have anticipated, can make significant progress in the general 
curriculum when given the chance and provided with solid instructional 
approaches.
    As a result of NCLB, expectations have increased, and services are 
planned and delivered with greater care and inclusiveness, even in a 
progressive system like Charlotte-Mecklenburg. Principals and teachers 
are far more focused on the academic progress of their exceptional 
students and the gains needed to make or maintain adequate yearly 
progress. Charlotte-Mecklenburg's data system supports our principals 
and teachers with up-to-date information and quarterly assessments of 
academic progress. Diagnostic information for each individual student 
helps the teacher select appropriate structured interventions based on 
identified student needs. This type of systematic attention to 
disadvantaged and disabled students is precisely what No Child Left 
Behind is helping to articulate. Special educators and parents welcome 
this instructional attention to students with disabilities. And, I have 
seen much the same reaction among teachers of English language learners 
and other disadvantaged children.
    One of the most recent revisions in our local accountability 
program has been to refine our bonus pay system for principals and all 
building staff to include not only academic performance of all children 
but also NCLB Adequate Yearly Progress. With data provided to them, 
principals can gauge the progress of their schools, subgroups, 
classrooms and individual students to insure focus on the achievement 
of all subgroups of students
    Operationally, the recent Department of Education regulation on 
assessment of significantly cognitively disabled children will be 
helpful. However, the state of alternative assessment including off 
level assessment continues to evolve. Because of the focused attention 
on students with disabilities resulting from NCLB, our schools, with 
district staff support, have reviewed assessments of all exceptional 
education students. The result through IEP teams has been to 
appropriately reassign many students to their inclusion in on-grade 
level state required assessments. Yet, approximately 1.5% of our 
special education students have disabilities that prevent them from 
doing the same level of academic work as their age-mates. These 
students should be assessed with some form of alternative academic 
assessment aligned with our North Carolina academic standards. As the 
district, state, and nation continue to work through the challenges of 
NCLB, we are confident that the special needs of these students will 
also be met.
    Inclusion in accountability systems, however, is undermined in 
states proposing and being approved for minimum subgroup sizes for 
students with disabilities that are substantially larger than for low-
income students, African-American students, and others. It invites the 
manipulation of the NCLB accountability system and operationally allows 
some schools and some school districts to escape portions of subgroup 
accountability. As an urban educator and a special educator, equity for 
our students is extremely important.
    For those of us in Charlotte-Mecklenburg and for our Great City 
School colleagues, No Child Left Behind is focused on the right 
children--those in greatest need of instructional attention and 
additional resources. For students with disabilities, this attention 
and accountability for results may be the most significant addition to 
federal law in the last decade, and an appropriate complement to Sec. 
504, IDEA, and the ADA.
                                 ______
                                 
    Chairman Boehner. Thank you, Dr. Rhyne.
    Dr. Durkin?

   STATEMENT OF PIA DURKIN, SUPERINTENDENT, THE NARRAGANSETT 
           PUBLIC SCHOOLS, NARRAGANSETT, RHODE ISLAND

    Dr. Durkin. Good morning, Mr. Chairman, Congressman Miller, 
and Members of the Committee. Thank you for the privilege of 
offering testimony today on the critical work with students 
with disabilities and the impact of No Child Left Behind.
    I am Pia Durkin, Superintendent of Narragansett Public 
Schools, a small, suburban, upper income community on the coast 
of Rhode Island. I bring to the superintendency, however, over 
25 years of special education experience in both leadership and 
classroom positions in New York City, in Providence, Rhode 
Island and in Boston, Massachusetts most recently.
    I'd like to frame my remarks under the context of simply 
saying stay the course with including students with 
disabilities in all the accountability standards.
    As the pressure toward accountability for progress mounts, 
the reaction of some is to question those students who are not 
making fast enough gains, most notably, students with 
disabilities. Why include them in accountability standards? I 
offer four reasons.
    First, in 1997, this country took both an equity and 
educational leap forward for the rights of students with 
disabilities by mandating not only was it the law that students 
enter our classroom door with their peers, but that access to 
the general education curriculum was critical for success of 
our students. Access so students with disabilities would have 
the same opportunities as their non-disabled peers.
    The mandate was issued that students with disabilities 
would be counted, as all other students, in state and local 
assessment systems. If access infers being counted, then not 
being counted infers not being cared for. From the historical 
perspective, I urge you that we must continue to ensure that 
all students are counted and cared for.
    Second, being counted and having access demands and ensures 
a share of the resources for schools to succeed. Without 
accountability, quality curricula, state-of-the-art classroom 
materials and technology and solid effective professional 
development do not become the domain of the special education 
teacher, who then becomes further disengaged from effective 
practice. The cycle continues with administrators demanding 
less rigor in classrooms serving special education students, 
and students falling further behind because of lackluster, low 
expectations.
    Third, given that nearly 80 percent of the six million 
students served through IDEA have learning issues, and those 
predominately are related to literacy--reading and writing--we 
must have a laser-like focus on increasing proficiency of 
literate learners. The significance of so many of our students 
with poor reading skills has been documented well in the 
literature. This research is not unrelated to the 
overidentification issues facing our school systems--large and 
small, urban and rural, rich and poor.
    For years, Boston had the highest proportion of special 
education students served in this country--23 percent of its 
population. The school system I now lead, Narragansett, on the 
other end of the economic spectrum, has nearly 25 percent of 
students identified. Two school districts, one large, one 
small, one largely serving the poor, the other serving families 
of considerable means, both inadequate in providing effective, 
systemic literacy instruction, and both using special education 
as the escape valve for students with different needs. Both 
developed separate systems of accountability. Now Boston has 
reduced its high proportion to a respectable 16 percent, due in 
large part to broad-based, unified literacy instructional 
methods. And Narragansett has begun its first steps toward that 
same end.
    Without accountability, data has shown that referrals to 
special education increase significantly the year before the 
test is given. The sorting process begins by sifting through 
those who have learned and those who have not, moving the issue 
away from its source and its place of intervention.
    Without accountability, the urgency to create conditions 
for students to make progress is merely reduced to a simmer 
level. When schools and the adults working in them are held 
accountable, the teaching and learning conversation becomes 
more of where is the student reading? Where was she reading 3 
months ago? How much progress has she made? Rather than a 
discussion of labels, excuses, or reasons focused on the 
student as to why he or she is not making progress.
    These conversations must continue, and No Child Left Behind 
provides the context for those discussions to continue.
    As a superintendent, I grapple with my colleagues across 
the country with the pressures of meeting the NCLB mandates--
targeting resources to meet the needs of those who have already 
been left behind; challenging the culture of accepted low 
performance for some, and collecting data not only on those who 
have met the bar, but those who are making progress toward that 
bar.
    Booker T. Washington once said, ``It is not where you have 
reached, but rather, how far you have come.'' In 1975, with the 
passage of IDEA, this country allowed millions of children with 
disabilities to enter the doors of public schools. The 
continued impact of No Child Left Behind to count, consider, 
review, and demand progress of our students with disabilities 
must not waiver, so that the students who enter our doors can 
leave them with the assurances they need to succeed as well as, 
if not better than, their non-disabled peers.
    Thank you for this opportunity.
    [The statement of Dr. Durkin follows:]

  Statement of Pia Durkin, Superintendent, Narragansett Public Schools

    Good morning Mr. Chairman, Congressman Miller, and members of the 
Committee. Thank you for the privilege of offering testimony today on 
the critical work with students with disabilities and the impact of the 
No Child Left Behind Act on that work. I am Pia Durkin, Superintendent 
of the Narragansett Public Schools, a small suburban upper income 
community on the coast of Rhode Island. I bring to the Superintendency 
over 25 years of special education experience--in both leadership and 
classroom positions--in New York City, Providence, and Boston, most 
recently serving as an Assistant Superintendent there for five years.
    I will would like to frame my remarks under the context of 
``staying the course'' with including students with disabilities in all 
accountability standards.
    Students with disabilities must remain part of--and succeed with--
the standards-based reform movement. Standards have brought schools 
clear and focused high expectations-the ``what'' our students need to 
learn, the ``how'' of challenging and rigorous curriculum, and the 
``where'' of ensuring that all students make sustained progress toward 
reaching those standards.
    As the pressure toward accountability for progress mounts, the 
reaction of some is to question those students who are not making fast 
enough gains--students with disabilities being one major group. Why 
include them in accountability standards? I offer four reasons.
    First, in 1997, this country took both an equity and educational 
leap forward for the rights of students with disabilities by mandating 
that not only was it the law that students enter the classroom door 
with their peers but that access to the general education curriculum 
was critical for success of these students--access so that students 
with disabilities would have the same opportunities as their non-
disabled peers. The mandate was issued that students with disabilities 
would be ``counted,'' as all other students, in state and local 
accountability systems. If access infers ``being counted,'' then ``not 
being counted'' infers not being cared for. From the historical 
perspective, we must continue to ensure that all students are counted 
and cared for.
    Second, being ``counted'' and ``having access'' demands and ensures 
a share of the resources for schools to succeed. Without 
accountability, quality curricula, state of the art classroom materials 
and technology, and solid effective professional development do not 
become the domain of the special education teacher who then becomes 
further disengaged from effective practice. The cycle continues with 
administrators demanding less rigor in classrooms serving special 
education students and students falling further behind because of 
lackluster low expectations.
    Third, given that nearly 80% of the six million students served 
through IDEA have learning issues--and those predominantly are related 
to literacy--reading and writing--we must have a laser-like focus on 
increasing proficiency of literate learners. The significance of so 
many of our students with poor reading skills has been documented well 
in the literature. This research is not unrelated to the 
overidentification issues facing our school systems--large and small, 
urban and rural, rich and poor. For years, Boston had the highest 
proportion of special education students served in the country--23% of 
its population. The school system I now lead, Narragansett, on the 
other end of the economic spectrum has nearly 25% so identified. Two 
school districts--one large, one small, one largely serving the poor, 
the other serving families of considerable means--both inadequate in 
providing effective systemic literacy instruction and both using 
special education as the ``escape valve'' for students with different 
needs. Both developed separate systems of serving students because of 
different accountability standards. Now Boston has reduced it high 
proportion to a respectable 16% due, in large part, to broad-based 
unified literacy efforts. And Narragansett has begun the first steps 
toward that same end.
    Without accountability, data has shown that referrals to special 
education increase significantly the year before the test is given--the 
sorting process begins by sifting through those who have learned and 
those who have not--moving the issue away from its source and its place 
of intervention.
    Without accountability, the urgency to create conditions for 
students to make progress is reduced to merely a ``simmer level.'' When 
schools and the adults working in them are held accountable, the 
teaching and learning conversation becomes ``Where is she reading at? 
Where was she reading three months ago? How much progress has she 
made?'' rather than a discussion of labels/reasons/excuses focused on 
the student as to why she is not making progress. These conversations 
must continue and No Child Left Behind provides the context for these 
discussions.
    As a Superintendent, I grapple, as my colleagues across the 
country, with the pressures of meeting the NCLB mandates--targeting 
resources to meet the needs of those who have already been left 
behind--challenging the culture of ``accepted'' low performance for 
some--and collecting data on, not only on those who have met the bar, 
but those who are making progress toward the bar.
    Booker T. Washington once said ``It is not where you have reached, 
but rather how far you have come.'' In 1975 with the passage of IDEA, 
this country allowed millions of children with disabilities to enter 
the doors of public schools. The continued impact of NCLB to count, 
consider, review, and demand progress of our students with disabilities 
must not waver so that the students who enter our doors can leave them 
with the assurances they need to succeed as well, if not better, than 
their non-disabled peers.
    Thank you for this opportunity.
                                 ______
                                 
    Chairman Boehner. Thank you, Dr. Durkin.
    Dr. Thurlow?

 STATEMENT OF MARTHA L. THURLOW, DIRECTOR, NATIONAL CENTER ON 
         EDUCATIONAL OUTCOMES, UNIVERSITY OF MINNESOTA

    Dr. Thurlow. Mr. Chairman, Mr. Miller, and other Members of 
the Committee, thank you for inviting me to speak today, as 
well.
    At the National Center on Educational Outcomes, a center 
that provides assistance to states on the inclusion of students 
with disabilities in state and district assessments, my staff 
and I are closely involved with states as they implement their 
No Child Left Behind plans.
    Because of our many years in working on the inclusion of 
students with disabilities in assessments, I think that we have 
been able to see the forest as well as the trees, a perspective 
that not everyone has these days. It is because of this view 
and the evidence we see about the effects of including students 
with disabilities that I so strongly support their inclusion in 
the assessment and accountability provisions of the No Child 
Left Behind Act.
    I want to make four points today that confirm the 
importance of including students with disabilities in 
assessment and accountability. They show I think that it is not 
unreasonable to hold schools accountable for these students; in 
fact, that it is important to do so.
    First, we are already beginning to see the benefits of the 
inclusion of students with disabilities. Stopping now would be 
terrible. More students with disabilities are participating in 
assessments than ever before, and the increased participation 
is translating into improved performance in states where they 
have implemented reforms.
    I have given the Committee graphs showing data from New 
York and Massachusetts. The New York data show that more 
students with disabilities took and passed the rigorous 
Regent's Exam in recent years than have ever taken them before, 
indicating access to the curriculum as well as to the 
standards--or standards and to the assessments.
    The Massachusetts data show the steady increase in passing 
rates of students with disabilities and the fact that they were 
not doing very well when the exams were first administered. 
That's where we are in a lot of the states at the beginning. 
Over time, with training for the educators, support for the 
students, the stuff that NCLB is about, the scores improved.
    Kansas has posted data that show increasing percentages of 
students with disabilities who are proficient. Twenty-six 
percent in 2000; 50 percent in 2003 in reading. As will other 
states when they emphasize and implement reforms. These data 
show what can be.
    My second point is that being in special education, having 
a disability does not mean that students cannot meet standards. 
It should be obvious I think from the above examples and from 
what we've heard today. But I still so often hear educators and 
others say something like how can you expect special education 
students to perform well on these tests? If they could do that, 
they wouldn't be in special education. Statements like that are 
outrageous to me. Special education is supposed to provide the 
services and supports that enable students to be successful so 
that students can achieve proficiency. Special education 
eligibility should not be an excuse to expect little from a 
child or to provide little for the child. Low expectations is a 
pervasive problem. No Child Left Behind is shining a very 
bright light on low expectations, and that is a very important 
outcome.
    The third point I want to make today is about where the 
adjustments are in fact needed. Well, I think there are some 
ways in which assessments can be improved, for example, by 
making them more accessible through use of universal design 
principles. The bigger work that needs to be done is in 
providing students with disabilities greater access to the 
curriculum, making sure that they have appropriate 
accommodations and supports that they need.
    States that have done this have seen improved results. 
There are many states and districts on the road to these 
improved results. Ohio, for example, has a very strong plan for 
reform and improvement that is bound to produce subgroup gains. 
I've looked at districts within California. They're exploring 
their data in ways that are going to help them identify 
successful programs, programs and practices that meet the needs 
of their students with disabilities. These approaches are 
popping up all over the country. The adjustments that are 
needed are emerging.
    My last point is to emphasize the importance of staying the 
course. Complaints and controversy are a natural reaction to 
the increased pressure of ratcheting up of accountability. This 
doesn't mean that it is bad or that there should be a change. 
It does mean that people are paying attention. It means that 
students with disabilities are not just the concern of special 
educators anymore. They are the concern of all educators, and 
this is good.
    Where we are now is a sea change from where we were 10 
years ago. Some of this started before NCLB. The Individuals 
with Disabilities Education Act of 1997 required that students 
with disabilities participate in state and district assessments 
and that their results be reported publicly in the same way and 
with the same frequency as those of other students. While this 
happened in some states, not until No Child Left Behind did all 
states really pay attention to the requirements.
    NCLB has given us data on students with disabilities that 
we only had sporadically before. These data can help educators 
know where to devote resources. NCLB has given the impetus for 
special educators and general educators to work together in a 
way that never seemed to rise to the level of importance to 
make it happen before.
    Making students with disabilities one of the subgroups of 
No Child Left Behind truly has been a very important and 
positive event in the education history of students with 
disabilities.
    Thank you.
    [The statement of Dr. Thurlow follows:]

  Statement of Martha L. Thurlow, Ph.D., Director, National Center on 
                          Educational Outcomes

    Thank you for inviting me to speak today. I am the Director of the 
National Center on Educational Outcomes, a technical assistance center 
that provides assistance to states on the inclusion of students with 
disabilities in state and district assessments, and on important 
related topics such as standards-based reform, accommodations, 
alternate assessments, graduation requirements, universally designed 
assessments and accessible testing. We support our technical assistance 
with policy research on states'' current policies and practices in 
these and other areas. We also conduct other research to move the field 
forward in its thinking, in areas such as how to develop universally-
designed assessments that are accessible for students with disabilities 
without changing the content or level of challenge of the test, and how 
to most appropriately assess students with disabilities who are English 
language learners.
    The focus of our organization results in our close involvement with 
states as they implement their No Child Left Behind plans. Yet, because 
of our many years of working on these issues, I think that we can see 
the forest as well as the trees. It is because of this view, and the 
evidence we see about the effects of including students with 
disabilities that I so strongly support the inclusion of students with 
disabilities in the assessment and accountability provisions of the No 
Child Left Behind Act.
    I want to make four points today. These points confirm the 
importance of including students with disabilities in assessment and 
accountability. They show that it is not unreasonable to hold schools 
accountable for these students.
    First, we are already beginning to see the benefits of the 
inclusion of students with disabilities in assessments and 
accountability systems. As a result of having actual assessment data 
for these students, we know that more students with disabilities are 
participating in assessments now than were tested a mere three to five 
years ago. We see these data in every state. Participation rates have 
gone up dramatically. Think of New York's Regents exams, some of the 
most rigorous exams in the country. The state released data showing 
that more students with disabilities took and passed those tests in 
recent years than had ever taken them before--and to take them, 
students had to first be enrolled in Regents courses. This means that 
they had to have access to a curriculum that they had not had access to 
before, and they are achieving success.
    Massachusetts also has data showing the passing rates for students 
with disabilities on its high stakes graduation exam. Many students did 
not pass when the exams were first administered. People started to pay 
attention when that happened, including the students. Attention was 
devoted to what was happening in the classrooms for all students, 
including students with disabilities. Training was provided to make 
sure that all educators including special educators knew WHAT all 
children were to know and be able to do--the content standards--and how 
to teach them. Massachusetts's data show where the passing rates for 
students with disabilities have steadily climbed from one year to the 
next. Graphs showing the data from both of these states are attached to 
the end of this testimony (Figure 1 shows New York's Regent's Exam in 
across four years; Figure 2 shows Massachusetts's graduation test 
results for the class of 2003).
    Kansas, as a result of its emphasis on reform, has reported that 
the overall percentage of students with disabilities who are proficient 
in reading has increased from 26% in 2000 to 50% in 2003. The 
percentage who are proficient in math has increased from 36% in 2000 to 
58% in 2003.
    These data show what can be. Staff at NCEO talk to state directors 
nearly every day, and they tell us that they are seeing positive 
changes. Of course, they also tell us about the challenges. The 
challenges are not necessarily due to the assessment or the 
accountability system, however. The assessment system and its results 
serve as a warning flag. They tell us when we need to do something 
about our instruction, our resources and supports. Making changes to 
the assessment or accountability system is not the answer.
    My second point is that being in special education--having a 
disability--does not mean that students cannot meet standards. I know 
that it is terrible to speak in double negatives, but I so often hear 
educators say something like: ``How can you expect special education 
students to perform well on these tests? If they could do that, they 
wouldn't be in special education.'' Those statements are outrageous to 
me. Special education eligibility should result in an identified 
student receiving the services and supports needed so that the student 
can be successful--so that the student can achieve proficiency. Special 
education eligibility should NOT be an excuse to expect little from a 
child, and to provide little for the child. The assessment and 
accountability provisions of NCLB have helped us recognize this for 
what it is, a problem of low expectations.
    Low expectations is a pervasive problem--one that our colleague 
Kevin McGrew, who is one of the authors of the Woodcock-Johnson III 
tests of cognitive ability and achievement, has examined by looking at 
the academic achievement of students of varying IQs, often used for 
eligibility for special education services. He has found: ``It is not 
possible to predict which children will be in the upper half of the 
achievement distribution based on any given level of general 
intelligence. For most children with cognitive disabilities (those with 
below average IQ scores), it is NOT possible to predict individual 
levels of expected achievement with the degree of accuracy that would 
be required to deny a child the right to high standards/expectations.''
    One of the bedrock principles of No Child Left Behind is that all 
students can learn to high standards. I believe that No Child Left 
Behind is shining a very bright light on low expectations, and that is 
an important outcome.
    The third point that I want to make today is about where 
adjustments are in fact needed. First we should look at accommodations, 
supports, and instruction. These are where the issues that are causing 
low student achievement are most likely to lie, not in the assessment. 
While there are some ways in which assessments can be improved, for 
example by making the assessments more accessible through the use of 
universal design principles, the real work that needs to be done is in 
providing students with disabilities greater access to the curriculum, 
making sure that they have the appropriate accommodations and other 
supports they need. States that have done this have seen the improved 
results that are the goal of No Child Left Behind, as shown in the data 
from New York, Massachusetts, and Kansas.
    We know how to educate all children, including those with 
disabilities, if we have the will to do so. The discussion should not 
be about whether students with disabilities can learn to proficiency--
and thus, it should not be about whether they should be included in 
assessment and accountability measures--it must be about whether we 
have the will and commitment to make it happen.
    Finally, my last point is to emphasize the importance of staying 
the course. Complaints and controversy are a natural reaction to the 
increased pressure of the racheting-up of accountability. This does not 
mean that it is bad, or that there should be a change. It does mean 
that people are paying attention! It means that students with 
disabilities are not just the concern of special educators anymore. 
They are the concern of all educators, and this is good. Everyone needs 
to take responsibility for the learning of students with disabilities. 
Recent research has shown that schools where there is shared 
responsibility and collaboration among staff have students scoring 
higher on their district assessments.
    Where we are now is a sea change from where we were 10 years ago. 
Some of this started before No Child Left Behind. The Individuals with 
Disabilities Education Act of 1997 required that students with 
disabilities participate in state and district assessments and that 
their results be reported publicly in the same way and with the same 
frequency as those of other students. While this happened in some 
states, not until No Child Left Behind did all states really pay 
attention to the requirements. The assessment and accountability 
requirements of No Child Left Behind have given us data on students 
with disabilities that we only had sporadically before. These data can 
help educators know where to devote resources. No Child Left Behind has 
given the impetus for special educators and general educators to work 
together in a way that in many places never seemed to rise to the level 
of importance to make it happen before. Making students with 
disabilities one of the subgroups of No Child Left Behind truly has 
been a very important and positive event in the education history of 
children with disabilities.
[GRAPHIC] [TIFF OMITTED] 92309.001

                                 ______
                                 
    Chairman Boehner. We thank all of our witnesses for your 
testimony and your insight into the effect that No Child Left 
Behind is having on students with special needs. And I guess I 
particularly appreciate your strong support of the fact that No 
Child Left Behind really means no child left behind. I don't 
know why some in America don't quite understand this, but they 
will.
    Dr. Thurlow, in 1997, when we last reauthorized IDEA, 
states were required not only to assess children with 
disabilities and to publish those test scores, but they were 
also required under the '97 act to develop alternative 
assessments for students with severe cognitive disabilities. No 
Child Left Behind comes along 4 years later, and it's been 2 
years since then, so now we're talking about 6 years. How many 
states still don't have alternative assessments for those very 
special needs children?
    Dr. Thurlow. All states have alternate assessments now for 
their special needs children--those with the most significant 
cognitive disabilities. The development of those assessments 
has been quite a challenge for states, and it's been an 
evolving process for states as they've come to understand who 
that population is. These are children in some states that they 
were outside of their vision, literally outside of their 
vision. And so it has been a dramatic change, a sea change, for 
people to realize we do mean all students. All students means 
all students.
    So figuring out how do we really assess these students with 
the most significant cognitive disabilities has been a 
challenge. All states now do have an alternate assessment for 
those students, but they are still evolving. Because when they 
started in 1997, and some were slower to start than others, 
when they started, perhaps they started falsely and they went 
back and had to revise. So even now, states are evolving. And 
as they now have to go from an assessment that they perhaps did 
in grades 4, 8 and 12, and now are going to need to do that in 
every grade, they are also rethinking, can we continue to use 
the procedure that we used in only a few grades to do it?
    Chairman Boehner. Dr. Durkin, you brought up the 
troublesome subject of overidentification. And while there are 
some that are concerned that the 1 percent rule issued by the 
department doesn't go far enough, if in fact we can begin to 
address the overidentification issue, that would in effect 
provide even more flexibility to local districts.
    What's happening in the real world with regard to reducing 
the incidence of overidentification, especially of poor 
minority children?
    Dr. Durkin. I think your question, Mr. Chairman, is an 
excellent one, because it points to the type of preventive work 
we need to do as educators before a referral is made to special 
education. Referrals to special education should be one of the 
last steps when we're talking about students with learning 
disabilities and learning issues.
    In some instances, we need to look to what has been the 
level of instruction. Many states are now working on a response 
to intervention model--what has been done, and how has that 
student responded to the instructional supports that have been 
targeted for that child's needs, particularly in the pre-K 
through 3 arena? We're seeing in our own school district the 
more effort we are putting in those areas, the fewer students 
that are moving out of third grade where the shift comes from 
learning to read to reading to learn, that we can be able to 
see fewer students needing that targeted needs between fourth 
and then eighth grade.
    Right now I believe school systems are grappling with a 
great deal of work at the ninth grade level. Students who are 
coming into high school who are poor learners and through that. 
I think our identification systems must merit questions not 
only regarding individual testing but how has the environment 
in that classroom changed. What has been done with that 
student, so that we can ensure that when we do make a referral 
and then a definition of eligibility comes into play, what has 
been done. And to my satisfaction, we attempts have not 
answered that question of what has been done with that student 
prior to that.
    Mr. Miller. If I just might piggyback on that question, and 
you may have just answered it, but let me give it to you how 
I'm hearing it in some anecdotal fashion. And that is that some 
parents and even some educators are suggesting to me because of 
the disaggregation of the data and the need essentially for the 
school district progressing to take a second look at some of 
these children, and they're putting them through some 
additional assessments. They are finding out that in many 
instances this is a reading problem that can be addressed as 
opposed to then deciding to push the child along with some 
other label that would suggest that they be in special 
education. Is that anecdotal--is that happening or not 
happening?
    Dr. Durkin. I think the issue of disaggregated data propels 
us to look at students individually as well as a subgroup. Your 
point about noting progress of students rather than wait till 
the year end standardized high stakes testing that so many of 
our states have developed, we need to develop and ensure that 
we're seeing progress along the way.
    It is very difficult in May to see a student who has 
failed, and my first question to my staff is why? What didn't 
we catch back in November, back in January and back in March? 
And those are the issues that we need to hold accountable for 
both general and special education and put systems in place 
where we're monitoring the progress as we move toward the high 
stakes involvement.
    So your point is a good one in terms of not only do we have 
to make sure that responses and interventions are made, but 
that we need to have a targeted, timely response in school 
systems to ensure as students are moving that we are tracking 
progress, and that we are ensuring they are moving. And that 
progress may differentiate depending on the child, the 
disability and the areas. But progress has to be made.
    Chairman Boehner. Dr. Rhyne, let's stay on the same 
subject. You've got a model district when it comes to dealing 
with students with special needs. How does your district deal 
with identifying and appropriately identifying children with 
special needs that qualify for IDEA, and where do you draw the 
line, and how do you deal with the overidentification question?
    Dr. Rhyne. It's an excellent question, and I think an area 
that Charlotte-Mecklenburg schools has done exceptionally well 
in. We have implemented a comprehensive reading model within 
the district, and within that model there is a universal access 
piece of it where most of the children are going to do well on 
the universal access piece. For those children who are falling 
out of the universal access, we are looking at targeted and 
intensive interventions. And we have set targeted and intensive 
interventions in place. We're seeing great improvement in our 
reading scores as suggested in our NAEP trial urban school 
district scores.
    Another thing that we're doing that Dr. Durkin referred to, 
we have in our district a very systematic way of keeping track 
of where students, classrooms and schools are. As a principal 
in the Charlotte-Mecklenburg schools, I am provided with 
quarterly data. We have developed quarterly tests that align 
with our end-of-grade and end-of-course tests. And the 
principals get that data, and we have instructed every 
principal on how to sit down, use that data, tear it apart by 
classroom and down to the individual students.
    We're now dealing with individual students in the 
Charlotte-Mecklenburg Schools. And we're looking at what does 
that child need. We're looking at specific items that they 
missed on the test. Do they need to be regrouped? Can we pull 
this group to the side and do a different intervention with 
them?
    So we have quarterly assessments and then we have what are 
called mini-assessments, and these assessments are like the 
quarterly except they occur every approximately six to 7 days. 
And so with that type of very intense data and using data to 
make instructional decisions, we feel that we are more on 
target with where individual children are. And by doing that as 
a district, we are affecting special education.
    Chairman Boehner. Well, I want to congratulate you and 
others who take the assessment data, actually use it as a 
management tool to look at your own systems, your own 
curriculum, your own teachers, and relate that to the needs of 
children. There's a nearby state that I've met with yesterday 
that the assessment data goes to the state. It never comes back 
to the school. It just flabbergasts me. They don't--the 
principal, the teachers, all they know is that their kids 
passed or failed or they need improvement or they're somewhere 
on the list, but they don't know what the test scores are.
    So, congratulations. Mr. Miller?
    Mr. Miller. Thank you. Once again, I'm going to piggyback 
on Chairman Boehner's question here. First of all, I want to 
say that I was at a meeting on Monday with some foundation 
people in California and all they kept talking about was 
Charlotte-Mecklenburg. So apparently there's much to envy here.
    But first of all--second of all, one of the little secrets, 
maybe it's of legislative intent, but we think it's also in the 
bill rather clearly that when we were talking about 
assessments, very often we were talking about diagnostic tools. 
The Governors got wrapped up in high stakes testing long before 
we ever wrote this law.
    But what we were hoping for was that in real time, every 
six or 7 days or quarterly or monthly, we could pass on real 
information to teachers, to principals, to students and to 
their families about what might be done and what adjustments 
could be made so that these children could continue to 
progress. That seems to have been lost in most of this. When I 
meet with many of the curriculum companies, who are also now 
becoming assessment companies, they tell me that this can be 
embedded and you can do this for a vast number of students 
which would be helpful because then we could again focus down 
on others. I don't know if that's the case or not. But it would 
seem to me especially with this population of special ed 
children that diagnostic tools are really what you would be 
looking for here, both to convey information to the teacher and 
to the--about the student. But also we want to see whether or 
not the teachers are teaching in a manner that's appropriate to 
that student. Is that correct?
    Dr. Rhyne. That's absolutely correct. That's why we 
established these mini-assessments and quarterly assessments. 
We did not want to wait till the end of the year and be 
surprised. We wanted to know as we progressed through the year 
what children were proficient in what was being taught, the 
specific objectives, and who needed help. And we used that 
data. We used that data on a daily basis. We are down to 
looking at individual students and looking at what objectives 
children know, what they don't know, and then providing 
targeted intervention.
    Another way we use it, which I think is quite interesting, 
in Charlotte-Mecklenburg, as you know, in a large urban 
district, the issue of hiring certified special education 
teachers is often difficult. And so we hire sometimes lateral 
entry teachers who are not certified. They are college 
graduates. They may have an undergraduate degree, for example, 
in psychology. And this data is used also to target those 
teachers in how well they are instructing their students.
    And when we find that they are really struggling because 
they don't have the educational preparation that a certified 
teacher might have, then we send out to the school 
instructional support in that we have special education staff 
out of my office who go and work with that teacher. When I say 
work, I mean get your hands dirty work. They are in the 
classroom sometimes 13 solid days co-teaching, teaching, 
modeling, showing them the standard course of study, 
rearranging their classroom, helping them set up behavior 
management. And that has proved to be very, very effective for 
our lateral entry teachers.
    We want to increase these teachers' skills, and we don't 
want them to leave, because then we're in a vicious cycle. If 
they leave at the end of the year, we start all over again. So 
we're trying to grow our staff, and by growing our staff, we 
can ensure better instruction for our students with 
disabilities.
    Mr. Miller. Thank you very much. Let me just ask you, in 
your general curriculum, do you use the same reading program 
across the entire district?
    Dr. Rhyne. Yes, we do. Our universal curriculum is a 
specific reading series that is used across the district in 
both regular education and special education.
    Mr. Miller. So as the child moves from one school to 
another--
    Dr. Rhyne. Same, exact--
    Mr. Miller. You would have, again, you would have real time 
information about that child when they go into the new school?
    Dr. Rhyne. Absolutely. And our district has written pacing 
guides so that on any given day, we know what is being 
instructed in all of our schools, all 140 schools across the 
district. For those children who then are having difficulty 
with that textbook, with that series, we have established 
another set of materials that is used for targeted intervention 
with any student. It just doesn't have to be a special 
education student. And the targeted intervention is a research-
based intervention. And we group students, find time in the 
schedule to provide that targeted intervention and then move 
students back into the universal text as they make improvement.
    Mr. Miller. Thank you. Thank you, Mr. Chairman.
    Chairman Boehner. The chair recognizes the gentleman from 
Nebraska, Mr. Osborne, for 5 minutes.
    Mr. Osborne. Thank you, Mr. Chairman. Thank you for being 
here today. We appreciate it. I'm somewhat interested in maybe 
the interface of early learning programs with special ed, and 
so I'm going to ask kind of a broad question of all of you.
    Let's say we took a random student population and we 
subjected them to a fairly rigorous early learning program such 
as Head Start, and we took another random group and didn't 
assign them to Head Start, would you see--do you think that 
you'd see a reduction in special ed students who, if they were 
exposed to early learning experiences? And how does that relate 
to overidentification?
    Dr. Rhyne. I'd like to respond to that. In the Charlotte-
Mecklenburg schools, we have an early childhood education 
program, and it's called Bright Beginnings. It is for 4-year-
old children who are disadvantaged educationally.
    We have studied--the program has been in effect probably 
for about 5 years, 6 years, and we have studied the groups of 
children who have gone through this Bright Beginnings program, 
which is very literacy based, and there's a high level of 
parent involvement that's required as part of being in the 
program. We've studied these children at the third grade level, 
and these children are right on target and exceeding the 
success and progress of control group type children. So we feel 
that Bright Beginnings, that Bright Beginnings program with the 
attention on early literacy is absolutely critical.
    Dr. Thurlow. I'll jump in on top of that one, because I 
think there is some research basis for preschool and early 
programs. But I think we need that focus on the early literacy, 
and, you know, we really need to know what is going on in those 
programs. So I wouldn't just say Head Start. I would say what 
is going on in those programs? What's the target of the 
instruction and the nature of what's going inside them? Before 
I'd say--
    Mr. Osborne. So you're not just saying a blanket approach.
    Dr. Thurlow. Yes. Right.
    Mr. Osborne. But as long as it's targeted and it's headed 
toward literacy, it's important. Yes, ma'am?
    Dr. Durkin. Congressman, I would just like to add that my 
colleagues are correct in what is going on, but we have found 
with children who do come to school with significant stressors 
from urban settings and with lack of language skills, because 
we know language is tied very much with literacy, is they need 
more time. And they need more intensive supports. It doesn't 
mean they cannot achieve that same standard. But we must put 
into place either additional home components.
    We've had a great deal of success with family literacy 
programs, working with families in conjunction with students on 
how to encourage reading and writing at home, as well as 
developing Saturday programs, after-school programs. These are 
the merits of what really helps our children catch up and give 
them a fair level field, level playing field, which is what No 
Child Left Behind is about.
    Ms. Sabia. I just want to make a comment about high 
expectations in this area, because many times we have children 
with cognitive disabilities. The ones that are identified early 
because they have Down Syndrome or something that you know from 
birth, there are not high expectations when it comes to these 
children, and a lot of time is wasted until they can show you 
what they can do because they can't speak early on. And we went 
ahead and did our own early intervention for reading and other 
things, and my son went into kindergarten being able to read. 
And I think it shows that, if given the opportunity, and with 
the high expectations, that you don't wait until you find out 
how well they can speak or other things they can do. They can 
start learning early and they will, by the time those kids get 
to all these assessments you're talking about, really be 
amazing and be able to surprise people. But those high 
expectations have to start from the very beginning or you lose 
all those years.
    Thank you.
    Mr. Osborne. Thank you. I gather you're in favor of early 
learning programs, from your response. One last question. Dr. 
Rhyne, in your testimony, you mention that your bonus pay 
system for principals and building staff include not only 
academic performance of all children but also No Child Left 
Behind adequate yearly progress. And one of the complaints we 
often hear is, well, you know, you're going to have teachers 
teach to the test, and when you throw in additional economic 
incentives, I imagine that there may be even more grounds for 
that complaint. And I just wondered if you would care to 
comment on how you see that working in your system.
    Dr. Rhyne. We just did this about 2 weeks ago. We 
realized--we've had a local bonus for a long time, and our 
local bonus was tied to achievement of our state scores. We 
realized that with AYP coming in and No Child Left Behind that 
principals were paying more attention to the state scores than 
they were to this whole AYP issue. So we had to get their 
attention.
    And we said that not only did you have to make achievement 
on the state scores but also you had to make your AYP goals. 
And so for the first time this year at the end of this school 
year, all staff at a school includes all levels of staff, will 
receive a bonus if they make both.
    Mr. Osborne. Thank you. That sounds a little bit like merit 
pay or something like that, but I appreciate it very much and I 
yield back, Mr. Chairman.
    Mrs. Biggert. [presiding] Thank you. The gentleman from 
Michigan, Mr. Kildee, is recognized for 5 minutes.
    Mr. Kildee. Thank you, Madam Chair. I'll direct this to Dr. 
Rhyne first, but the others are welcome to join in. What are 
the advantages or disadvantages, benefits or problems with the 
alternative tests based upon alternative achievement standards? 
The Secretary has said 1 percent can be assessed using an 
alternative test. What are the advantages or disadvantages of 
that, the problems or benefits? And might states be tempted to 
seek an exception to the 1 percent limitation, which the 
Secretary has indicated could be given?
    Dr. Rhyne. I think there are definitely advantages to the 
alternative assessment. If we did not have alternative 
assessment, then when said that No Child Left Behind was 
dealing with all children, we'd be leaving out a group of 
children. And so ``all'' would not mean all.
    In the state of North Carolina, we have had a very 
successful alternative assessment. It's a portfolio assessment 
for our students. We had the good fortune of receiving a 
Federal grant and working with colleagues from the University 
of North Carolina at Charlotte on alternative assessment for 
our students, and we in Charlotte have done very well with our 
alternate assessment, and we feel like with the alternate 
assessment, we have really been able to show teachers how to 
use data. Again, it gets back to data and how to use data to 
make instructional decisions on a daily basis.
    So I'm very much in favor of the alternate assessments, 
because it allows us to include all children.
    Mr. Kildee. Do you see much of a problem of, in the 
alternative assessment, the temptation to bring the assessment 
down rather than to bring the child up?
    Dr. Rhyne. What we've done in Charlotte, we have another--
our alternate assessment is one level, and then kind of the 
next level up of assessment is called an alternate academic 
inventory, and it's an assessment for students who are being 
instructed off grade level. So, for example, a child who may be 
in the fifth grade but is instructed on the second grade level.
    For that group of children, we have special education 
children on the alternate assessment, and we felt like perhaps 
across the district there might be children on that assessment 
who really could be on a standard assessment with 
modifications. So we went to every school. We went to all 140 
schools and met with the special education staff in those 140 
schools talking about and encouraging staff and IEP teams to 
really take a look and see if they had children who instead of 
going down to the portfolio, which would not be an appropriate 
move, who really could be on the end-of-grade standard 
assessment with modification.
    And I'm happy to report, we just got the data. We, through 
the IEP team process changed 27 percent of those assessments 
and put those children on standard assessment with 
accommodations.
    Mr. Kildee. Dr. Thurlow?
    Dr. Thurlow. I would like to make two points about the 
alternate assessment. One, I'd like to just comment briefly 
about what I see as the benefits that we've seen across the 
country in the alternate assessments, and then I'd like to 
second address your point about the concern that people might 
or states might sort of make things easier for these kids, kind 
of that concern there.
    So first, the benefits. And this has been--I think the 
alternate assessment has been one of the most dramatic sort of 
enlightened things that has been done in No Child Left Behind 
for recognizing a very small group of students who receive 
special education services who have very significant cognitive 
disabilities who most of population in the United States 
doesn't even realize are in our schools today, but who are. 
These are students with very significant cognitive 
disabilities.
    These are students who are taught by educators who for many 
years have viewed themselves as babysitters. And we have gone 
out now and have talked to many of these teachers, and they 
tell us they no longer see themselves as babysitters. They see 
themselves as professionals. They now know what their state 
standards are, because they are required to know their state 
standards because they have to work on an alternate assessment 
that is aligned to the state standards, and how can do that if 
they don't know the state standards?
    They have had to talk to the general education teachers in 
their districts to figure out what the standards are. So they 
see themselves as professionals. They know what their state 
standards are, and they are working on their state standards. 
They are working on academic aligned stuff for their kids with 
the most significant cognitive disabilities. This is a dramatic 
and, you know, I get emotional trying to talk about how 
important this piece is.
    Mr. Kildee. And the second part of my question?
    Dr. Thurlow. OK. And let me just say, because this 1 
percent means that these kids who are significantly cognitively 
disabled can be proficient. That's what's important about this 
1 percent.
    OK. The safeguards are really important, and that's what 
the other important thing about this 1 percent regulation is, 
because it has built in--it has built in a requirement that 
states must set rigorous standards. It doesn't say you can just 
go and say whatever you want to is proficient.
    States have to build a--have to go through a rigorous 
standard-setting process. They have to come up, like they do 
with their regular assessment, they have to come up with a 
process that they go through, they have to put together I would 
say a technical manual where they've defined what they've done. 
Show me why this is proficient, why this score, why this is 
proficient. Show me what process you've gone to.
    And, you know, so they've got to do for their alternate 
assessment what they've done for their regular assessment, and 
we've got to begin to look at those. And I would think your 
peer review process, or the Department of Education's peer 
review process will be looking very carefully at those. And I 
would expect, given what I've seen happening, that they will be 
doing that. So.
    Mr. Kildee. Thank you, both of you. I appreciate your 
response.
    Mrs. Biggert. The gentleman yields back. I will now yield 
myself 5 minutes.
    Ms. Sabia, you--they've been talking about the appropriate 
accommodations for students with disabilities to participate in 
the assessment and making sure that the test is still valid. If 
you don't mind my asking, what types of accommodation does a 
child like your son need in order to be assessed on what he 
knows and has learned?
    Ms. Sabia. Not as much as you would think, actually. For 
reading and language, he can read, as I said, so he does not 
need the verbatim reading. They do read the directions with him 
to make sure that he's really paying attention to the 
directions. Interestingly enough, the biggest accommodation he 
needs is somebody to color in the circles to make sure that 
they're precise enough that it can be read by the computer. 
That is really the biggest accommodation.
    He can dictate and have them write the answers when there 
are written answers, although he has refused that accommodation 
in the past by self-efficacy. Math, he uses a calculator, and 
that is his math accommodation.
    And I did want to make one point about alternate 
assessments as well, because that's really, for a lot of the 
kids, they may end up in the alternate assessment with the 1 
percent. I'm just hoping--we are all just hoping that states 
will take--be really reading those regulations closely and 
follow what they say, because the spirit in there is very 
strong about high standards and high expectations, and that 
that 1 percent is only--it's supposed to be a cap. So many 
students who have cognitive disabilities can, like you just 
asked for my son, be able to take the regular assessments 
either with accommodations or with the alternate format that's 
permissible on grade level. And for those who can't, that there 
still be high expectations and there are even multiple 
alternate achievement standards. So to make sure that there are 
enough of those going on so that you really are reaching the 
kids where they are at and challenging them and not having the 
problem you were speaking about.
    But obviously, you know, kids vary, and there are other 
accommodations that need to be given. And the big thing--we had 
a problem where we were seeing that the test was not being 
validated because of accommodations. And the push with No Child 
Left Behind really was to find ways to work around that. And 
now tests that before were invalidated because they were not 
separating them out enough so that the accommodations only 
invalidated some and not all, the push of No Child Left Behind 
has found ways to fix that problem.
    And we're hoping that states will really rise up and not do 
the minimum of what needs to be done. For example, in my state, 
Maryland, we have an N of 5 that's second to lowest in the 
country, of the number of kids with which you have to keep that 
group as a subgroup. So almost every school counts their kids 
with disabilities because the N is 5 and not 20 or 100.
    And so that's what our hope is, that states will then take 
the lead that you all have started and have high expectations 
and not just necessarily put those kids under the 1 percent, 
see what they could do with those accommodations that you asked 
about.
    Mrs. Biggert. Thank you. I know that you mentioned that 
NCLB is one of the myths is that it requires one-size-fits-all 
assessments, and I don't think that so many people realize that 
it really is so much--the flexibility to give the states to do 
so much, and I don't think that we've done a good job of 
getting that word out on how the states and the local school 
participate so much.
    In fact, I think from my state, there's been concerns that 
in doing the AYP that so many of--so much of the media came out 
and said schools fail, and using the term ``failure'' because 
they haven't met the AYP goals for that year. And part of it 
was just not understanding I think how the system worked, and 
it's been unfortunate I think, but maybe all of you could help, 
if you have some ideas how we as Members of Congress can help 
get the word out to people about the real benefits.
    Yes, Dr. Durkin?
    Dr. Durkin. Yes. I just want to add to that. I think one of 
the key things that we need to work together on is looking 
toward more of an academic progress standard and really noting 
of how much progress students make in contrast to the current 
proficient standard. And I think over time, that is going to 
mean a great deal, particularly for school systems that are 
finding themselves a great deal of difficulty reaching that AYP 
standard.
    There really does need to be merit and challenge to 
motivate principals, staff, and teachers as well as students 
and families that we're moving in the right direction. We have 
to stay the course. And it's those kinds of looking at value-
added assessments really need to merit some view of how much 
progress we've made as opposed to in addition to just reaching 
the proficiency standard.
    Mrs. Biggert. Thank you. With that, I'll yield back and 
recognize the gentleman from New Jersey, Mr. Andrews.
    Mr. Andrews. Thank you, Madam Chairman--Chairwoman. Ms. 
Sabia, I just wanted to say to you the reason I voted for No 
Child Left Behind and would again is so that Stephen and 
children like him have a highly qualified teacher in front of 
them all the time, have no artificial limits placed on our 
expectations of what they can achieve, and so that they are 
regularly measured so we can test ourselves to see whether 
we're meeting our commitment to Stephen and his classmates.
    I think there are a lot of people out there who really 
don't want accountability and are using legitimate objections 
to problems in this law as trojan horses to try to disrupt the 
law and overturn it. Having said that, I think we do need to 
focus on some of the legitimate issues that I've identified in 
talking to educators, listening to educators in my area, and I 
wanted to ask Dr. Durkin some questions that might help me 
understand how she's dealing with them in Rhode Island.
    I did a little bit of research on your district, Dr. 
Durkin, and I think you have about 1,700 students. Is that 
right?
    Dr. Durkin. That's correct.
    Mr. Andrews. And so I'm--and it's a K to 12 district?
    Dr. Durkin. It's a pre-K through 12 district, yes.
    Mr. Andrews. So I'm assuming that, just pick the third 
grade, for example, has maybe 140 children, 145?
    Dr. Durkin. About 134. You're close.
    Mr. Andrews. OK. Could you be a little more specific?
    [Laughter.]
    Mr. Andrews. I notice in your testimony you say that about 
a quarter of the children in your district are identified IDEA. 
Does that hold true in the third grade roughly?
    Dr. Durkin. Generally--it's interesting. There's right now 
a significant bulge at the ninth grade because of students 
having been identified so in grades.
    Mr. Andrews. What I'm asking is, about how many of your 
third graders are IDEA students?
    Dr. Durkin. I would say approximately--I would say about 10 
percent at this point.
    Mr. Andrews. So maybe 13 or 14 children?
    Dr. Durkin. Correct. Yes.
    Mr. Andrews. What's the N in Rhode Island? What's the 
smallest group--what's the group that you have to disaggregate 
to? Ms. Sabia just said it's 5 in Maryland. It's 20 in New 
Jersey. What's it in Rhode Island?
    Dr. Durkin. It's 30 to 45 in those issues. And I think 
that's a real measure of concern, if I can elaborate on that.
    Mr. Andrews. Well, can I just ask you a question first?
    Dr. Durkin. Yes. Sure.
    Mr. Andrews. If I understand the regulation the Department 
has just put out, with respect to your third graders, and again 
we're using about 130 of them or so, that at most, two of them 
could be waived out of the assessments under No Child Left 
Behind, 1.5 percent, 1 percent is 1.6 children or something, so 
it's two kids, which means that there are 11 or 12 children in 
the third grade in your school district who will be subject to 
assessment under No Child Left Behind, which I support and 
agree with. How do you plan to assess them? What are you going 
to do?
    Dr. Durkin. We've used the regular assessments that we are 
using. And at this point in time, the concern that, in terms of 
the cell size, and I think your point is a good one, is that we 
need to really look at the cell size to ensure that that's not 
being used to minimize the impact of No Child Left Behind.
    Mr. Andrews. If the cell size were five in Rhode Island, so 
you would have I assume two groups of third grade children who 
are IDEA, right? How would you assess those 10 or 11 children? 
You would assess them against the regular Rhode Island third 
grade assessment?
    Dr. Durkin. That's correct. With accommodations as needed, 
depending according to their IEPs.
    Mr. Andrews. Without in any way disclosing any--I guess I 
shouldn't use a specific rate. Generically in your school 
system, based on your research, what percentage of the IDEA 
children do you think have the potential to achieve total 
proficiency on the regular assessment?
    Dr. Durkin. My view with progress--right now we've targeted 
approximately 23 percent of students who have not reached the 
standard at the middle school level, grades 5 through 8, and 25 
percent grades 9 through 12. Interestingly enough, in that 
percentage point, approximately 10 to 15 percent of those 
students are students with IEPs. They are not all students with 
IEPs.
    Mr. Andrews. I understand.
    Dr. Durkin. Which comes back to the Congressman's question 
about the overidentification issue.
    Mr. Andrews. And again, without making a rhetorical 
statement, I would say all the children have the potential to 
achieve.
    Dr. Durkin. Absolutely.
    Mr. Andrews. But looking at it in terms of passing the 
assessment, what do you think the optimal result is for passing 
the assessment? A hundred percent?
    Dr. Durkin. I would--yes, we shoot for 100 percent over 
time in terms of looking at the benchmarks to ensure that we're 
constantly increasing our level of proficiency toward that.
    Mr. Andrews. Are you satisfied that you're being given 
sufficient flex ability on test accommodations that you can 
fairly evaluate those 10 or 11 children?
    Dr. Durkin. Yes.
    Mr. Andrews. Are there any additional accommodations that 
you would ask for?
    Dr. Durkin. I would probably, in working with my IEP team, 
see what those additional would be needed, and we would then 
accommodate that individualized request for that.
    I have not had issues with the accommodation issues. My IEP 
teams have not. In fact, we're really trying to do what my 
colleague, Ms. Sabia, is saying, to really look at the students 
who can take the standardized testing with as close to the 
valid procedures that are administered for that.
    Mr. Andrews. Just very quickly I'll wrap up. There are 
three schools in your district?
    Dr. Durkin. Yes, there are.
    Mr. Andrews. Are any of them on the needs improvement list?
    Dr. Durkin. There are--all three schools are considered 
high performing. Two are what we consider the sustaining model, 
one is in the improving level. So our goal is to always be high 
performing and improving. However, because of the cell size and 
the smallness, there are significant numbers of students who 
have not reached the standards, and because I have such a small 
district, I have the benefit of knowing every one of those 
kids.
    Mr. Andrews. I have a lot of districts like yours in my 
area, that's why I'm very interested. Thank you very much.
    Dr. Durkin. Thank you.
    Chairman Boehner. The chair recognizes the gentleman from 
Georgia, Mr. Gingrey, for 5 minutes.
    Mr. Gingrey. Thank you, Mr. Chairman. I was in my district 
last week--well, actually, Monday of this week, talking about 
No Child Left Behind and in particular, regarding IDEA special 
ed students and the testing.
    There seems to be some confusion, at least in my district, 
about the 1 percent rule. The assistant superintendents and 
principals that were at this meeting felt that the 1 percent 
rule was only applicable to 1 percent of the students being 
tested, not the whole student population. It's my understanding 
that it's the entire student population, and that when you 
calculate that and you apply it, then those numbers to your 
special ed population, that you're able to have an alternate 
assessment for up to 9 or 10 percent of that subgroup.
    They went on to express a concern about the remaining 
students in that subgroup, those that are not part of that 9 or 
10 percent that you're able to do alternate testing because of 
the 1 percent rule. And the rest of those students of course 
have a standard testing. And depending on their IEP, of course, 
you make special provision for them, whether it's vision-
impaired or hearing-impaired or ADD or whatever those needs 
might be, to optimize their chances of succeeding on the tests.
    But these teachers and these administrators felt that even 
given all of that, it was unlikely that this larger population 
of your special education students, IDEA, that they would 
hardly--maybe never be able to be brought up to grade level 
because many of them at the outset are two and 3 years behind 
their peers, and that the goal that this particular school 
system was setting was to raise them by a half a year in each 
full calendar year. So they felt that it was an unfair burden 
to expect them to take a standard test that the regular ed 
students are taking, and they could not make that adequate 
yearly progress. So that I guess basically what they're saying 
is you need to cut us some more slack.
    And I would like to ask particularly Dr. Durkin and Dr. 
Rhyne about that, because I truly believe that No Child Left 
Behind means exactly what it says. And while these children may 
be a couple of years behind or more at the outset, hopefully at 
the end of the day, before we get to 2014, that they will be no 
longer being left behind. If you'll comment on that, I would 
appreciate it.
    Dr. Rhyne. It is a challenge, and we have children who are 
being instructed. Their instructional level is several years 
below their chronological level. And the question you raise is 
a good one and a very legitimate one.
    And that is where a district really needs to get focused 
from the top down and to put the message out about the need to 
provide intensive interventions. And it's not just special 
education children. There are other children as well, intensive 
interventions for those children where in effect they're 
learning more in a year than their counterparts, because if 
they don't learn more, they will never catch up.
    And the importance of--I've said this before--using data to 
make those decisions, rather than guessing as to what you think 
might be right and what the child should be working on, but 
using very specific data to make those instructional decisions; 
by providing after school programs; by providing Saturday 
programs where we really, really get focused on what children 
need. And I do believe that they will make and pass that 
standard test.
    Dr. Durkin. I think the issue of leadership and aligning 
goals that everyone is, as Dr. Rhyne said, focused, but 
everyone is on the same page. There has to be a real connection 
between, for example, my superintendent goals, the school 
improvement team goals, as well, as the supervisory goals I 
expect from my administrators. And all those have to point to 
achievement, teaching and learning. And there has to be a 
progression to understand that it's doable, but that we're all 
moving toward that direction.
    So I really see an alignment of having everyone understand, 
verbalize and speak the focus that is on literacy and numeracy.
    Mr. Gingrey. Thank you very much. I am encouraged by those 
responses. And thank you, Mr. Chairman.
    Chairman Boehner. The chair recognizes the gentlelady from 
Minnesota, Ms. McCollum, for 5 minutes.
    Ms. McCollum. Thank you, Mr. Chair. If the Children's 
Defense Fund got a dollar for every time we said ``leave no 
child behind,'' we'd have more and more children succeeding. I 
want to talk about just a couple of things, and that is, if 
someone after I'm done with my question would comment about the 
role of social capital in making sure that all of our children 
reach their full potential, and that goes to parents' 
education, access to learning, sometimes due to opportunities 
because of limited income--I couldn't afford to take my 
children to the science museum--all those things are not only 
important to children that we talk about in the mainstream, but 
they're of equal importance to children with disabilities. And 
so the social capital and the investment in that and helping 
those children succeed I think is something I would like to 
have some comment on.
    One of the challenges I think that I'm hearing very clearly 
is the labeling issue, and people saying OK, this child is 
special needs. Therefore, we don't have high expectations. It 
has been my experience in my school districts in Minnesota that 
I haven't run across parents who don't have high expectations 
for their children with special needs. Being a parent of a 
child who was in special needs labeled, you know, well, maybe 
because of his dyslexia, he shouldn't take any foreign 
languages, and now is going to get his masters degree in 
English as a second language and is fairly proficient in 
Japanese, reading and writing it, we kept those high 
expectations. We pushed our school districts, and I feel that 
the parents in Minnesota have done that.
    But at the same time, we are hearing from many of our folks 
in Minnesota, you know, if we don't get all the resources we 
need in order to make all of our children successful, holding 
the state accountable, holding the school district accountable, 
puts everyone at edge with one another. And I was just recently 
in a high school where there was a special needs student, and 
his comment was he had some things he would like to see 
addressed in his individualized plan, but he turned around to 
the rest of the students in the classroom and he said, but 
everybody here has things that they would like to have added as 
value to their education.
    So my question is, given the fact that Washington, D.C. 
right now is under a lead water alert, and we know that 
contributes to children not doing well, how do we as a country 
move forward, address the social needs, the environmental 
needs, and the needs of all of our children, because all of you 
are finding parents competing for limited resources? So what 
are some of the challenges you're facing in making this law 
work?
    Dr. Rhyne. If I may address that. I think one key thing is, 
as we've talked about before, early childhood programs that 
emphasize literacy I think are critical so that children come 
prepared to learn in kindergarten. Where language is really 
stressed within that early childhood program it's critical.
    I think it's critical that we have two things in a 
district, in a school district: one, that we provide more 
inclusive practices for students with disabilities, when you 
talk about the social capital. I think it's critical that 
students with disabilities be in general education classrooms 
and that special education teachers perhaps could be of more 
benefit not only to those special education children but also 
to general education children who are struggling.
    Ms. McCollum. If I may, because my time is going to run 
out.
    Dr. Rhyne. Yes.
    Ms. McCollum. The question then becomes, and was, do you 
have the resources to do that? Because that costs money to do.
    Dr. Rhyne. I believe we do have the resources to do that. I 
think if we're creative with what we have and we think outside 
the box and get people out of their little silos. Special 
educators, and I am a special education teacher, we think that 
only we can do it and only we can educate the students with 
disabilities, and it's very uncomfortable as a special educator 
to move out of that box and to move into general education and 
to be doing it a different way--for example, to be co-teaching. 
But I think it's critical for the students with disabilities 
and can potentially be very, very helpful for other students in 
that classroom who are struggling.
    And I'd like to just make one other point. The whole issue 
of students and social capital and how children come to school, 
I think it's critical that schools establish positive 
behavioral interventions and support; that a whole school 
establishes what the rules are in the school, where everybody 
from the custodian to the cafeteria worker to the parents to 
the teachers to the children can articulate what is expected in 
that school.
    And then for those children, 85 percent of the children 
should be able to behave under a universal model like that. 
Then another 15 percent of the children are going to have 
difficulty and need some group work, and schools can set that 
group work up where there are peer bodies, where there are 
small groups where the psychologist is working with a small 
group, maybe on anger management. And then there's another 5 
percent who are going to need individual work.
    A PBIS model is a research-based model, and I think as 
districts and the problems that public schools have with 
discipline, I think we need to be looking differently at how 
the adults do business in schools.
    Ms. Sabia. I would just make a comment about the resources, 
just a quick example of how it doesn't always take resources. 
Creativity is the buzz word here, and parents can help a lot, 
you know, with coming up with some of these ideas. One of the 
ways to help kids who are disadvantaged, who are not getting 
what they need at home for a variety of reasons are some of the 
after-school activities like homework club, whatever. But if 
you have a child with a disability, they may not be able to 
access it because maybe they need some more support.
    So in my school we started why not find out what middle 
schoolers might want community service credit, and connect the 
parents with those students and bring those students in to 
help. They did that with my son in science club. So here after 
school, he's getting access to something that he maybe would 
not be able to do as easily if the person teaching it did not 
have the support, and that's more time that a student who may 
not have opportunities at home can get those enrichment 
opportunities and not have it cost anything for that extra 
support.
    So it's creativity.
    Ms. McCollum. Transportation. That's the problem.
    Ms. Sabia. Transportation is an issue. But I really do 
believe, you know, some problems can't be creatively handled, 
but there are enough of them to free up resources for where you 
can have those creative solutions.
    Mrs. Biggert. [presiding] The gentlewoman yields back. The 
gentleman from Minnesota, Mr. Kline, is recognized for 5 
minutes.
    Mr. Kline. Thank you, Madam Chairman, and thank all of you 
for being here today. Some of you have traveled far. I'm 
especially pleased to see Dr. Thurlow from Minnesota. It's 
always nice to have somebody from your home state here.
    Let me just say that I know it must be horribly 
disconcerting to you to travel so far and see Members and 
coming and going from these hearings as we walk in and we walk 
out, and I just want to assure you that none of us mean any 
disrespect and none of us think that your testimony and your 
answers is anything but critically important. We just have a 
system that's almost impossible to understand much less 
explain, we schedule hearings here at the same time. And so in 
my case, I'm listening to General Abizaid from the Central 
Command testifying in one hearing, which seems to be fairly 
important, considering the 200,000 U.S. troops in his area of 
responsibility, and then to this panel, which is also just 
extremely important.
    This issue has been discussed at great length, and I can't 
tell you how many teachers, principals, superintendents have 
been to my office or me to theirs to talk about No Child Left 
Behind and the difficulties that special education students are 
offering them. And I know this has been discussed. Chairman 
Boehner brought it up, but I want to revisit it for just a 
minute, and that's the 1 percent rule that the Department has 
just put out that allows 1 percent of students to get different 
assessments.
    Even with that, I'm hearing from folks in Minnesota that 
that's not good enough; that the 1 percent number is too low, 
and yet I think I've heard from the panel that we should stay 
the course. And so maybe we'll start with Dr. Thurlow since 
just I'll pick on my fellow Minnesotan. And if you would just 
address that specific issue, the 1 percent. Is that right? 
Should we have any percent? Is that number too low? And then 
anybody else who would like to offer a thought.
    Dr. Thurlow. Let me start. We collect data. We've been 
working with all states, so let me start with some data that we 
collected in 2000 and 2001 when most of the states had their 
alternate assessments in place and had collected the data.
    Now not all states had collected the data, but we had data 
from most states. And we looked at their alternate assessment 
data at that point. And I can't right now off the top of my 
head recollect the exact number, but the majority of states at 
that point had less than 1 percent of their students, of their 
total population of students, taking their alternate 
assessment. That's a good barometer I think because that was 
before the accountability things were right there on top of 
their head.
    So once you put that accountability in there, then 
everybody's getting really nervous and they're worried about 
whether their kids are going to be proficient. And so then 
they're looking for, I don't want to call it loopholes, but 
they're looking for ways to figure out how to get those numbers 
up.
    And so I think the 1 percent number is the break number. 
The data that I've looked at tell me that the number is the 
right number. That's not to say that people are worried about 
their numbers and that they think maybe, you know, there are 
some kids right on the borderline that maybe they really 
shouldn't be in the regular assessment at this point anyway, 
and maybe they should be in the alternate assessment, but every 
piece of data that I've looked at tells me that 1 percent is 
the right number. Some states are way below that 1 percent 
figure.
    You know, in my mind, 1 percent is right, and there's no 
question in my mind.
    Dr. Durkin. With all due respect to Dr. Thurlow, and I do 
believe nationally when we look at this group of students, this 
is a group of students that are clearly identifiable at birth, 
and we know clearly that they're going to be eligible for IDEA 
services. But I will just give one piece of examples. In 
Boston, which has huge medical facilities--I believe our city 
in Houston has the same--we were at times having a large 
proportion of students, significant proportion of medically 
fragile students, simply because of our medical investments, 
these children were living longer and coming to school, where 
previously, 10, 12 years ago, they would not be.
    So I ask you to caution to look at the 1 percent, but for 
states to be cognizant of certain things that do impact on 
their areas that may merit that, without going into the 
loophole or escape valve kind of provision. Because these 
students are clearly identifiable. And if anything should be 
asked, what are the reasons for asking for an increased 
percentage, not to increase or change the accountability 
standard but to possibly include students who really do merit 
that category.
    Mr. Miller. Would the gentleman yield? Oh, excuse me. Go 
ahead.
    Mr. Kline. Yes, I'd be happy to yield.
    Mr. Miller. I just wanted to yield, if you could 
incorporate in your answers this question of the LEAs being 
able to ask the states to increase that. I assume that would 
have to be based upon data.
    Dr. Durkin. Correct.
    Mr. Miller. And then the question would be whether or not 
the Department of Education would grant the state some leeway. 
Could you explain how that might play out in this 
consideration?
    Dr. Durkin. I could definitely foresee with the data of the 
area that we're in and the kinds of students we're talking 
about according to the criteria in IDEA that a particular LEA 
may be representing more students in that category that might 
merit more than the 1 percent. But it would have to go through 
either a waiver process or documentation through that, through 
the LEA.
    Mr. Miller. With the state?
    Dr. Durkin. Yes.
    Mr. Miller. And then that question would be what's the 
impact on that on the overall state?
    Dr. Durkin. I would think particular cities, though, would 
have, particularly in the urban cities, would have a different 
piece of information than you would from other cities. So I 
would imagine foreseeing going to the LEA to be able to look at 
that and then foreseeing that, again, being granted that 
because of the data representing in that particular location.
    Mr. Miller. You mentioned the medical facilities. You might 
have the same situation in Minnesota. So they could 
theoretically, based upon hard data, go and get additional 
leeway or waiver for--in that particular school system, right?
    Dr. Durkin. But I would imagine that would be the exception 
rather than the rule.
    Mr. Miller. Right. Right.
    Dr. Durkin. Because the same criteria would be kept. Just 
the fact that I may have more students in that category than 
perhaps another town across the state, for that, and I think 
that's the issue that really needs to merited, because I do 
hear that if we waiver from that criteria, we could very much 
be having students over that 1 percent that clearly should be 
held to standard assessment procedures rather than alternate.
    Mr. Kline. I thank the gentleman.
    Mr. Miller. I'm sorry.
    Mr. Kline. And reclaim my time and just ask if there's 
anybody on the panel who disagrees with the 1 percent rule. 
Anyone who disagrees?
    [No response.]
    Mr. Kline. OK. Thank you very much. I yield back.
    Mrs. Biggert. Thank you. The gentleman from Massachusetts, 
Mr. Tierney, is recognized.
    Mr. Tierney. Thank you, Madam Chairman. Thank all of you 
witnesses. And I respect your testimony and appreciate it. I 
think we may have all benefited if we had also had a panelist 
who could raise some of the issues that we keep hearing in our 
districts. I'm not sure I'll be able to do all of that in the 
short period of time that I have, but I do want to project out 
some of the comments that I hear and get your response on them.
    One I think hear most predominately is the claim that 
there's not enough resources in order to accommodate all of the 
support systems that you talk about when you find there is 
something lacking in a teacher or in a school, many of you have 
already talked about sending resources out there to fix that 
situation. I'm told over and over again because of state 
cutbacks in funding as well as the Federal real or perceived, 
whichever side you want to argue on that, cut, lack of funding 
or whatever, that there just aren't those resources, and 
therefore, schools are being put into needs improvement 
category more and more often. Do you find that? I guess, Dr. 
Thurlow, you're the one that deals most often on a broader 
scope. The others can answer if they want. Do you find that to 
be the case in general?
    Dr. Thurlow. We find there's a consistent complaint about 
it, but we also find that states are doing very innovative 
plans that are not necessarily requiring a lot of additional 
resources. So, I referred to the Ohio plan. They have put 
together a very, very impressive plan where they are pulling in 
existing resources that they now have access to. There is a 
wonderful array of technical assistance services that are out 
there available, and I'm speaking particularly from the special 
education side.
    There is a whole host of technical assistance services 
available to states. Ohio has built in all of those technical 
assistance services and has a comprehensive plan that it is 
working off of.
    You know, I think states being creative, filtering those 
resources down into their districts and down into their schools 
is one of the creative things that can be done.
    Mr. Tierney. Do you think the Department of Education is 
doing enough to help states get that done? Because I'm not sure 
from what I'm hearing that that's the case. It seems to me that 
in a lot of instances, we're talking about people who at least 
feel as if that isn't getting down to their school or their 
classroom, and that's where a lot of this feedback is coming, 
that they just aren't getting that support.
    Dr. Thurlow. I think there is a lot that's happening and 
that there's so much to be done and that people feel so much 
pressure. So, you know, I do think it's there. I just think 
that people feel like they're under so much pressure. We just 
need to give it more time.
    Mr. Tierney. Well, in line with that, let me read you a 
statement and get your reactions for this:
    ``Throughout history, business and schools in America 
flourished as powerhouses of economic and educational 
opportunity. For businesses that kept up with rapid 
globalization, the label continuous improvement organization 
became an asset, an advantage that would bring technical 
expertise and expansion opportunities. However, the President, 
Congress and state policymakers chose to cast the continuous 
improvement of schools as a negative. Policies and regulars 
appear designed to impugn rather than support public schools.''
    What would be the panel's response to that statement?
    Dr. Thurlow. Well, I think some of the media have created 
the impugning piece of this, and that is a tragedy, I think, 
because I think that the resources that are there to help the 
schools improve--and I guess I'll turn it over to my--
    Ms. McCollum. Would the gentleman yield?
    Dr. Thurlow. --to the others that are right down there in 
the field there.
    Ms. McCollum. Would you yield?
    Mr. Tierney. Sure. I'll yield to the gentlelady.
    Ms. McCollum. Dr. Thurlow, you're familiar with the 
Minnesota state auditors recent report, by 2014, the 
overwhelming majority of our schools in Minnesota will be 
failing. And that's a nonpartisan report. And that I find very 
alarming. That is separate a little bit from what we're talking 
today. But that was a nonpartisan report.
    Dr. Thurlow. Actually, I have to apologize, because I've 
been in the state so little I haven't had a chance to see the 
report.
    Ms. McCollum. Yes, well, Mr. Jim Nobles, our esteemed state 
auditor, released the report, which stated under No Child Left 
Behind, over 80 percent of our schools will be failing in 
Minnesota.
    Dr. Thurlow. All I can see is often--and I haven't seen 
that report--often those reports are based on if things stay 
the same. I apologize I haven't seen the report.
    Mr. Tierney. I have to--thank you. I made a mistake here. I 
had promised Mr. Kildee I'd yield to him, but so many people 
have asked questions between that promise and the time that I 
almost forgot Mr. Kildee. I'll yield to you.
    Mr. Kildee. Thank you very much. I just want to thank Ms. 
Sabia for offering her additional response and insight to my 
question on the 1 percent rule. That was very, very helpful. 
And also, Madam Chair, I'd ask unanimous consent to submit a 
statement for the record from the American Federation of 
Teachers.
    Mrs. Biggert. Without objection.
    Mr. Kildee. Thank you.
    [The material to be provided follows:]

            Statement of the American Federation of Teachers

    The AFT has long championed high standards around core academic 
subjects and accountability for the progress of all students, including 
students with disabilities. We support the use of valid and reliable 
assessments and the disaggregation and reporting of all mandatory state 
and district assessments so that we know how all students are doing and 
so that help can be provided to those who need it.
    We are, however, concerned about how children with disabilities are 
being integrated into the accountability systems under the No Child 
Left Behind Act. For example, although the Department of Education has 
revised its Title I regulations pertaining to the assessment of 
students with disabilities, the regulations are still problematic for 
two reasons.
    First, the revised regulations require that, except for the 1 
percent of students with the most severe cognitive disabilities, the 
scores of students taking an alternate assessment must be measured 
against grade-level standards. This means that students who are 
performing well below grade level, but who do not fall into the one 
percent, will almost certainly be rated as not proficient. These are 
students who may be improving, but the regular grade level assessment, 
even with accommodations, does not accurately measure their academic 
progress. Typically the Individualized Education Program (IEP) team 
recommends that such students, often referred to as ``gap students,'' 
take an out-of-level assessment because it is considered to be a better 
and more accurate way to measure the progress of their achievement. As 
the Title I regulations are written, out-of-level tests will, for 
Adequate Yearly Progress (AYP) purposes, only count for the 
significantly cognitively disabled, not the ``gap'' students. Districts 
and schools are left with no options for appropriately assessing these 
students for AYP purposes.
    Second, the revised Title I regulations only allow the proficient 
scores of students held to alternate achievement standards to count for 
AYP purposes if they do not exceed 1 percent of all students in the 
grades assessed. Proficient scores that exceed the 1 percent cap may 
not be included in AYP calculations. Setting a cap on the scores that 
may be counted is extremely arbitrary, and preliminary evidence 
suggests that the cap may be particularly unfair for urban districts 
because they tend to educate more students with significant 
disabilities.
                                 ______
                                 
    Mrs. Biggert. Do you yield back?
    Mr. Tierney. I'll keep going if I can, but it looks like 
the red light is on, so I'll yield back.
    Mrs. Biggert. Your time is up. The chair recognizes Ms. 
Majette, from Georgia, for 5 minutes.
    Ms. Majette. Thank you, Madam Chairwoman, and I thank the 
witnesses for being here and for the wonderful work that you 
all have done in this area.
    I've been sitting here for almost the entire hearing, and 
from what I understand, the brief comment that was made 
regarding resources, is it the opinion of all four of you that 
we do have sufficient resources to meet the needs of children 
and their parents nationwide with respect to this particular 
application of leave no child behind? And I'm asking that 
question because in my district--I represent suburban Atlanta, 
Georgia's Fourth Congressional District, and in the state of 
Georgia, our education system is in a precarious position with 
respect to funding.
    With the lack of funding or the underfunding of IDEA, of 
Head Start and of No Child Left Behind, we're really not able 
to meet all of the needs that we do have, and particularly in 
those areas where we have large minority communities, large 
communities of people where English is not their first 
language, where there are substantial cultural differences. And 
I just would like to hear the panel address whether you think 
that we do have enough funding to do what needs to be done for 
all of the different segments of the population as I've 
described. And perhaps--well, I don't know. Dr. Thurlow?
    Dr. Thurlow. I'll start it off, but I think those in the 
districts really are the ones that probably need to talk more 
about this issue. Looking only from a broad perspective, I'm 
not sure that I can answer that we have sufficient funds. I 
just, you know, what I think is, funding has always been an 
issue. It's not a new issue because of No Child Left Behind. 
So--
    Ms. Majette. Well, I certainly--I understand that the 
implementation of No Child Left Behind is going to require 
additional resources, whether you say it's money or something 
else, but it is going to require additional resources, and in 
terms of intensive intervention, if we already are not able to 
meet needs as they stand now, how do we expect to be able to do 
that?
    Dr. Thurlow. We need to be thinking creatively and changing 
what we do. I mean, this is an opportunity to do that, to meet 
the needs of kids and do what we do differently. So we really 
do change things. And because what we've been doing hasn't been 
working. There are too many kids who have been left behind in 
lots of different ways. This is an opportunity.
    Ms. Majette. Dr. Durkin?
    Dr. Durkin. I'd like to address that, because I really do 
think we have not been doing a great job of using the resources 
we do have. I have the highest per pupil spent on students in 
the state of Rhode Island, and asking me here today, if you 
said is that money well spent, I am appalled that I am a high 
performing school district with still 23 percent of fifth 
through ninth graders not reading at standards.
    So my quest as a new superintendent is really looking where 
the resources are going, realigning them, and targeting them to 
the needs we have. And that means doing things differently and 
maybe stop doing some things, but ensuring that they go to the 
services of the kids that we do need.
    Ms. Majette. Thank you. Dr. Rhyne?
    Dr. Rhyne. I think another issue is leadership in a 
district and focus in a district so that from the top down, 
from the superintendent, every level of administration, the 
teacher level, cafeteria workers, custodians, that everybody 
knows in that district what the goals are, what you're after. I 
think that's critical, and I think it's critical to develop 
strategic plans with very specific, measurable targets so that 
all the consumers know where a district is at any time and if 
we're meeting the goals or not.
    And I think, like Drs. Thurlow and Durkin have said, it's 
taking--we're never going to have enough money. So it's taking 
the money that we do have, and it's taking the resources that 
we do have, and doing business differently.
    Ms. Majette. Thank you. And Ms. Sabia?
    Ms. Sabia. Well, I think first of all, I mean, IDEA needs 
more funding and full funding and that would take some of the 
weight off of what school systems are dealing with. But I also 
think there are ways, and not just creative--I gave an example 
of a real specific creative way to deal with things--but on a 
larger level.
    School systems have, from the beginning with IDEA, for some 
reason developed this two-tier approach of special education 
and general education, and they're working these two parallel 
systems, and that's very expensive. There is a lot of 
duplication. You're creating a whole system of something, like 
extracurricular activities, and then later on saying, oh, what 
about those kids with special needs? What do we do with them?
    And we heard that sometimes transportation is an issue. 
Well, if those kids were in their neighborhood schools to begin 
with, they'd go home on the regular bus with the other kids. 
They wouldn't have to have some special special ed bus.
    And this goes all the way up to the administration. When 
you're running two separate school systems, a special ed system 
and a general ed system, there's a lot of add on expense. So 
with No Child Left Behind, we are now talking about one system 
of accountability, one school system. They're all our kids. And 
if that mindset starts flowing down to how you do 
administration, how you do curriculum, how you run your 
schools, I think we're going to find ways in which we can do it 
as one school system and just naturally I think costs will be 
cut that way, and also to the extent you want access to the 
general ed curriculum under No Child Left Behind, that's going 
to help improve scores for students. There's going to be more 
access to LRE, Least Restrictive Environment, under IDEA, I 
think if IDEA is fully implemented and you have more of that 
general access--the access to general ed curriculum and access 
to least restrictive environment, that will help No Child Left 
Behind and it will also allow for students who are in their 
neighborhood schools to have the same transportation, and 
you'll stop duplicating some of these things.
    But it's going to take time. This should have been 
happening in many states for a long time, and I'm afraid some 
of the states that are having the problems, it's partly because 
they weren't doing some of the things early on, and now it's 
catch up time, and now it counts. And so we're going to have a 
tough period to go through, but that doesn't mean it's not 
important and it isn't something we should go through. And 
funding has never been an issue not to do the right thing, as 
far as I'm concerned. And hopefully, while we work out the 
funding issues, people will continue to do what's right for 
kids with disabilities and not use that as a reason to not give 
them the accountability they deserve. Thank you.
    Ms. Majette. Thank you.
    Mrs. Biggert. The gentlewoman yields back. The gentleman 
from Maryland, Mr. Van Hollen.
    Mr. Van Hollen. Thank you, Madam Chairman, and thank all of 
you who are here today for this very important subject. Ms. 
Sabia, thank you for all you've done in Montgomery County, 
Maryland, as well as for the country.
    I had one question that relates to something that came up 
locally that I think also is an issue nationally which I 
believe has been resolved, but I'd like to figure out what the 
cause of it was. In Montgomery County when we were taking the 
state assessments I believe a year ago, the special education 
kids were given supports as part of taking their test, 
consistent with their special programs that they had. And as a 
result of that, those test scores were thrown out, and they 
were all, you know, counted as failing. Was that as a result of 
a state interpretation? Was that as a result of Federal law? 
And if it was part of the Federal law, has that been changed 
now? Because I think there was general agreement that people 
should be able to have the same supports that were available 
through their IEPs when they're taking the tests.
    Ms. Sabia. Well, my understanding, it actually wasn't the 
fault of any of those things. It was actually the test 
development. The test was developed in such a way reading 
assessment where there was a decoding portion, and obviously if 
someone is reading to you--it was a verbatim reading 
accommodation that caused it to be thrown out--if someone is 
reading to you, that would invalidate obviously a decoding 
portion, because you're not reading it. But then there are 
other parts to that test, and they were invalidating the entire 
test.
    And this is not new. I mean, it became a big issue last 
year because of AYP. This has been going on every year my child 
has taken this test, and it's never become a big issue because 
it didn't, you know, count, so to speak. And the only 
difference last year is for some reason they wouldn't even give 
you scores. That was something new.
    But because of the pressure of No Child Left Behind, there 
was just something put out, I think it was January 24th, that 
this has all been cured, that they did the test in such a way 
now that they can separate out the score of the decoding 
portion and the rest of the test will be valid and will be used 
for AYP. So to me that's an example of how the pressure of No 
Child Left Behind can help creatively fix some of these 
problems that have been around.
    So it's my understanding we're in good shape on that.
    Mr. Van Hollen. Good. Because that's been an issue 
elsewhere, as well.
    Dr. Thurlow. I'd like to make one other comment, and that 
is one of the real benefits that has come out of that. But it's 
also made us aware of something else that needs to happen, and 
that is one of the precursors of that was that IEP teams made a 
decision that lots of kids needed that reading accommodation, 
probably too many kids, more kids than actually did need that 
reading accommodation, and that identifies a need for more 
training for IEP teams, probably more research related to some 
of the accommodations. So there are still some needs out there 
related to research, professional development, training of 
various groups. So there's still some needs.
    Mr. Van Hollen. OK. You're saying overidentifying the 
number of kids who need the reading supports?
    Dr. Thurlow. That particular accommodation.
    Mr. Van Hollen. Dr. Durkin, you mentioned an issue with 
respect to being able to measure an academic progress standard 
or the value added. And I guess one question is for kids who 
were not meeting proficiency standards but have made lots of 
progress, does No Child Left Behind provide some kind of 
recognition of that kind of advancement, or is it dangerous to 
provide that kind of recognition because you want to really 
make sure people are absolutely proficient, even though they 
made a lot of progress?
    I think some schools are frustrated they may make progress 
and still be failing with respect to proficiency with no 
recognition of the fact that the kids have made progress. Could 
you respond to that, and anybody else?
    Dr. Durkin. I think you've captured that very well. And the 
difference is in a balance. We absolutely must stay firm on a 
proficiency standard, but in leading a school district, 
particularly in classrooms--and I'm a small district, so I'm 
looking at classroom data--I've got to encourage those 
individuals to keep working, and those families and kids to 
keep working.
    So I do see over time if we can move toward staying with 
the proficiency standard but giving some recognition, and that 
really comes to the state's accountability systems, of looking 
at progress made, and specifically targeting that progress in 
very objective terms, in terms of the percentage of students 
moving from one level to the next, the percentage of students 
that may have started 3 years below level and now are at--or 
are now moving a full year and a half progress, or have made 
the rate of progress much quicker because of the accelerated 
programs put in place.
    Those are just some thoughts to really look at, not only 
the actual standard piece, but the morale piece that keeps you 
going every day when you come into work.
    Mr. Van Hollen. And that can be done, you think, at the 
state level rather than through changes at the Federal level 
with respect to--
    Dr. Durkin. I believe so. I'm doing that at the local 
level. When I do a report, I report not only my NCLB standards, 
but actually by grade what the progress has been made also for 
the community to understand.
    Mr. Van Hollen. OK. Thank you. Madam Chairman, I'd like if 
I could, with unanimous consent, to submit the testimony of a 
teacher from Maryland, Rosemary King Johnston, who at one point 
was going to be--I think there was a last minute request that 
could not be accommodated for time purposes with respect to her 
testimony. If I could submit that for the record.
    Mrs. Biggert. Without objection, so ordered.
    Mr. Van Hollen. Thank you.
    Mrs. Biggert. Yield back.
    Mr. Van Hollen. I have one last question. I'll pass. It's 
late. But I guess--
    Mrs. Biggert. It's usually that last question that's the 
zinger.
    Mr. Van Hollen. No, no. It's just--it has to do with this 
issue of differences among the states between the number of 
children who are in a particular category for the purposes of 
measuring AYP. You said Maryland's got an N. We've been saying 
the N is 5. Some have 20. How--it's difficult enough to make 
sort of cross-state comparisons, because states already have 
different tests and different pass levels--does that just 
further complicate? Should we have some more consistency among 
states with respect to that number, or should we just leave it 
to the states as we have it today?
    Dr. Rhyne. I believe that we should have more consistency. 
And let me give you an example. In a school with about 1,000 
students, and we can assume that possibly out of those 1,000 
students we'll have about 120 special ed students, and so with 
those 120 special ed students, that school will be held and 
will count all of their special education students in AYP.
    Let's take a small school, a small school with, say, 300 
students. And let's assume in that small school with 300 
students that we're going to have roughly around 30 to 36 
special education children. And let's say the maximum subgroup 
is 45 in that state. All of those children get left out of the 
accountability system. And if you look at the National Center 
of Educational Statistics data on the size of schools, in the 
United States, median school size is about 460.
    So in a report there are approximately almost half of the 
schools in the United States could be left out of the 
accountability standards for students with disabilities. It's 
very disconcerting to me.
    Mr. Van Hollen. OK.
    Ms. Sabia. And this also adds to one of the myths that's 
going around. When you hear that, and then also consider how 
you're hearing all over the country that a few kids with 
disabilities are causing our school not to make AYP, well, even 
with all that flexibility, you are still hearing that. And I do 
think it should be more consistent, and I congratulate my state 
for being the lowest, or one of the lowest. I think there's 
more than one that has 5. And that I hope other states step up 
to that plate.
    But the people that are resisting this are still saying, 
even when they've got huge Ns for their school and are not 
having to count these subgroups, they're still saying, you 
know, this group of kids is bringing down the school. And 
that's a particular concern to parents of kids with 
disabilities, because it's making our kids the scapegoat.
    Somebody else brought forward, I think you might have been 
the one, Mrs. Biggert, about the issue with saying that the 
schools are failing, that language, which is not even in No 
Child Left Behind, and it's needs improvement. And I think it's 
fair to say that a school that may be a great school, a 
wonderful school, is doing a lot of great things, if they've 
got a subgroup in that school that is not doing well, it would 
not be fair to say they're failing in their mission, but it 
would be fair to say they need improvement.
    So this whole rhetoric turns around and it gets used in a 
negative way against kids with disabilities, and that's the 
part that I object to is the way in which the language and 
these myths keep propagating, and it's one of those myths 
people don't know about that in general, and they don't realize 
the extent to which kids are still, even with the strength of 
this law, kept out of the accountability system.
    Dr. Thurlow. I'll just add that we've been trying to go to 
states' web sites and pull those datas to see if we can 
actually get to that question of, you know, how many, in each 
of the states, how many schools are in needs improvement 
because of their students with disabilities subgroup, how many 
because of other subgroups, and let's actually get the data and 
see what's happening.
    And we can't find those data to look at. And part of it is 
because of the cell size issue. In too many schools, the cell 
size number prevents us from seeing kids with disabilities. So 
it is an issue I think to be able to look at the data and see 
really what's going on.
    Right now we're, you know, having a lot of complaints, and 
mostly it's because of rumor, and I'm not sure it's actually 
true.
    Mr. Miller. Just on that point, are parents or advocacy 
groups organizing around this issue of whether their kids are 
going to become invisible in this process or not?
    Ms. Sabia. Well, I'm in the process of writing this parent 
friendly brochure that we keep saying is an oxymoron, because 
it's a very difficult law to explain to anybody, and especially 
things like N numbers. But one of the things we're saying to 
parents in this is these are the things you can do at your 
state level, and one of them is find out what the N number is 
for your state and question why it is so high, and do advocacy 
on these specific parts, because the state does have so much 
flexibility. Make sure your state is using it wisely and not in 
ways that are going to undermine the accountability for your 
child.
    Dr. Rhyne. One other thing I'd like to just mention is some 
states have petitioned to get higher subgroup numbers for 
students with disabilities, and so a state, for example, their 
N might be 30 for all other groups, but 45 for students with 
disabilities. Something to take into consideration.
    Dr. Durkin. I would also like to add about the backlash 
that we all can work together regarding the issue of penalizing 
and demeaning the addition of special education students in a 
school because it will drag down their AYP. I think that's a 
very important message. Students with disabilities add an 
incredible breadth to a school to both children who have 
disabilities and those who do not. And I think we need to look 
at that value of what that brings to our communities and ensure 
that there is no backlash in a public relations standpoint for 
that.
    Mrs. Biggert. Thank you. I think that last question was a 
very important question, regardless.
    But I wish to thank the witnesses for their valuable time 
and testimony. You have been just an outstanding panel, and you 
have the expertise that is so important as we go through the 
implementation of No Child Left Behind, so we really appreciate 
that you've been here, and I thank the Members for their 
participation.
    If there is no further business, the Committee stands 
adjourned.
    [Whereupon, at 12:25 p.m., the Committee was adjourned.]
    [Additional materials submitted for the record follow:]

 Statement of Hon. Charlie Norwood, a Representative in Congress from 
                          the State of Georgia

    Mr. Chairman I thank you for holding today's hearing to further 
explore the impact of No Child Left Behind, and more specifically, the 
impact of including students with disabilities in the Adequate Yearly 
Progress (AYP) provisions of Title I. As a longtime supporter of No 
Child Left Behind and a firm believer that every student deserves the 
opportunity learn and make progress, I look forward to the testimony of 
our witnesses and appreciate their time in shedding light on this 
critical issue.
    Mr. Chairman, we all know that No Child Left Behind reflects the 
four pillars of President Bush's education reform agenda, which 
includes accountability and testing, flexibility and local control, 
funding for what works, and expanding parental choice and educational 
options.
    The engine that drives these important reform ideas is the ability 
to assess yearly progress for students in our public schools, and the 
Adequate Yearly Progress (AYP) provision in No Child Left Behind gives 
States the tools they need to help them determine if public schools are 
meeting the expectations of American families. Without AYP, it is 
impossible to determine which students are learning the critical skills 
and knowledge that they will need to compete in the modern workforce, 
and I fully support this program and the flexibility it offers to our 
States and local school districts.
    Mr. Chairman, I further believe that we must make sure that EVERY 
student has the skills and knowledge necessary to compete in the modern 
world. That is why I strongly support the actions taken by Congress and 
the Administration to ensure that ALL students, including students with 
disabilities, were included in State Developed AYP systems. Since we 
all desire to improve the educational opportunities for our most 
vulnerable children, I believe it is critically important to continue 
providing States with the flexibility they need to include children 
with disabilities in the AYP system.
    Simply put, a disabled student should not be discounted simply 
because he or she does not learn at the same rate or in the same manner 
as other students, and I believe that Congress has a responsibility to 
continue guaranteeing States the ability to assess the progress of 
students with special needs. In addition, I applaud the Administration 
for finalizing a regulation granting States further flexibility in 
measuring AYP for students with disabilities, so that they can develop 
and administer alternative assessments aligned to the standards for 
these students at the local level.
    The progress that Congress and the Administration has made in 
regards to AYP and students with disabilities is impressive, and I look 
forward to continuing our work in Congress to further enhance the 
opportunity for EVERY student to receive a top quality education in 
American public schools. With that being said, more work needs to be 
done in order to ensure that we continue to measure progress for all 
American students.
    I look forward to hearing our witness'' thoughts on how Congress 
and the Administration can continue in this important endeavor.
    Thank you Mr. Chairman and I yield back.
                                 ______
                                 

  Statement of Hon. Jon Porter, a Representative in Congress form the 
                            State of Nevada

    Good Morning, Mr. Chairman. Thank you for convening this hearing on 
the progress of No Child Left Behind Programs in providing our special 
needs children with the necessary resources to achieve educational 
advancement.
    Through a greater understanding of how these students are assessed 
in the class room, we as legislators will gain greater comprehension of 
the issues facing teachers in the classroom. I thank our distinguished 
panel of guests for providing us the insight into this process as we 
assess the efficacy of the programs contained under No Child Left 
Behind.
    As we work to ensure that the regulations of No Child Left Behind 
and the Individuals with Disabilities Education Act are enforced 
simultaneously, we must also inquire as to the actual benefit proffered 
to those whose challenges in the classroom are much greater than the 
average tasks of academic achievement. It is my hope that the 
flexibility of No Child Left Behind will allow our schools to maintain 
standards of progress and achievement that provide all students, 
special needs or otherwise, with the appropriate learning environment.
    The announcement yesterday by the Department of Education of 
states'' ability to exceed the 1% cap on the level of proficient scores 
from alternate assessments under their adequate yearly progress 
calculations illuminates the need, felt both by states and the federal 
government, to allow states substantial flexibility in determining the 
progress of their special needs students. This action by the federal 
government demonstrates the capability of No Child Left Behind to 
encompass the varying needs and standards of the states and their 
individual school districts.
    As we constantly review the measures of No Child Left Behind, we 
must continue to recognize the importance of the states in implementing 
the standards created at the federal level. This hearing provides us, 
as Members of Congress, an excellent opportunity to understand the 
varying degrees of difficulty in implementing this law. Again, I 
applaud the chairman, and this Committee, for engendering a continued 
relationship between the Congress and the teachers and administrators 
who implement the many facets of No Child Left Behind.
                                 ______
                                 

         Statement of American Occupational Therapy Association

    The American Occupational Therapy Association (AOTA) submits this 
statement for the record of the March 3, 2004 hearing. We appreciate 
the opportunity to provide this information regarding the relationship 
of occupational therapy services to improving results for children with 
disabilities under the No Child Left Behind Act (NCLB). It is important 
for Congress to monitor how well the law meets its objective of holding 
states and schools accountable for improving educational outcomes for 
all students, including those with disabilities. The topic of this 
hearing is critical to the development of a better, clearer picture of 
how America's public schools should educate students with special 
needs.
    Children's education and learning continues to receive a great deal 
of attention from teachers, administrators, parents and policy makers 
across the country. Of concern to everyone is how to best educate all 
students to high standards and how to appropriately measure student 
progress, particularly for students with disabilities and those with 
limited English proficiency. Embedded in NCLB is recognition of the 
link between improved student outcomes and well trained and qualified 
personnel. The law also requires school personnel to use effective 
instructional practices and other supports to help children learn. 
These and other issues have also been raised in the pending 
reauthorization of the Individuals with Disabilities Education Act 
(IDEA). NCLB and IDEA are expected to work in concert to help schools 
meet the learning and behavioral needs of children with disabilities. 
Occupational therapy services can play an important role in this 
effort.
Occupational Therapy Services under IDEA and NCLB
    Occupational therapy is concerned about an individual's ability to 
do everyday activities, or occupations, so that they can participate in 
school, at home, at work, and in the community. Occupational therapy 
practitioners use purposeful activities to help children bridge the gap 
between their capacity to learn and full, successful participation in 
education, work, play, and leisure activities.
    Occupational therapists look at the individual's strengths and 
needs with respect to daily life performance in school, home and 
community life, focusing on the relationship between the child and 
their performance abilities, the demands of the activity, and the 
physical and social contexts within which the activity is performed. In 
addition to the physical aspects, each individual's occupational 
performance is viewed through a psychological-social-emotional lens. 
This perspective helps the occupational therapist to understand what is 
important and meaningful to the child as well as how their roles, 
experiences, strengths and patterns of coping affect performance in 
learning and other activities.
    Occupational therapy for the school-aged child is intended to help 
them succeed in school. Intervention strategies may focus on 
information-processing, academic skill development, social interactions 
and ability to function in the school environment. For adolescents, 
occupational therapy focuses on preparation for work life choices, 
improvement of social and work skills, and learning how to create or 
alter the environment to maximize productivity.
How Occupational Therapy Helps Support NCLB and IDEA
    Occupational therapy intervention for children and youth is planned 
in consultation with parents and families, teachers, and other 
professionals, and is directed toward achieving desired outcomes. 
Children are being challenged by increasingly higher standards of 
educational performance and achievement. They may feel pressure from 
parents, peers, and others to behave in certain ways or to conform to 
certain expectations that may be in conflict with one another. 
Depending on the student's age, the presence of any learning 
difficulties may have debilitating effects on his or her sense of 
accomplishment or social competence. Difficulties with completing class 
assignments or in getting along with others may lead to frustration and 
self-isolation. Occupational therapy intervention for these students 
can address these stresses by identifying these psychosocial problems.
    In addressing learning problems, occupational therapists identify 
the underlying performance skills, including motor, process, 
communication and interaction skills that impede the student's ability 
to participate in learning and other school-related activities. 
Intervention strategies and service models are designed to support 
desired educational outcomes, and may be provided individually or in 
small groups. The therapist also works with classroom teachers and the 
student's family to determine how to modify the home or classroom 
settings, routines and schedules to provide structured learning 
opportunities and experiences that support the student's emerging 
skills. Occupational therapists also help students participate in lunch 
activities in the cafeteria and to identify organizational strategies 
so they can attend to instruction in the classroom.
    Occupational therapy can have a significant supportive role in 
testing under NCLB. The occupational therapists'' expertise in helping 
students meet school activity and task demands can help teachers and 
IEP Teams to identify appropriate accommodations needed in the 
classroom or learning environment to support the student's skill level. 
This includes identification of and training in the use of assistive 
technology or other aids that will help the student complete his 
assignments, as well as to participate in state and district 
assessments. These accommodations might include simple keyboarding 
devices such as the Alpha Smart; low-tech solutions such as built-up 
pencil grips, notebook paper with raised lines and elevated writing 
surfaces to assist with handwriting; and carrels to limit students'' 
peripheral vision distractibility.
    Another area in which occupational therapy can help improve student 
results is the area of literacy. Poor or messy handwriting is a major 
reason for referral to occupational therapy in school settings. Many of 
these referrals are from general education classrooms and may be 
related to decreased formal instruction in the mechanics of 
handwriting.
    Reading and handwriting are not simple learning tasks. Both require 
the coordination of complex cognitive, memory, visual and motor 
processes. Difficulties in one or more of these areas can also impact a 
child's view of the entire learning environment (such as learning to 
spell, use scissors or move through the hallways without bumping into 
another child), not just their ability to read and write. Even after 
these components are mastered, students' do not become 'writers' unless 
they also have the requisite language and cognitive abilities to 
organize ideas and express them appropriately using the rules of 
grammar and syntax.
    Occupational therapy has unique expertise in the areas that affect 
reading and writing. Children's visual and writing skills are dependent 
on having a stable base of postural or physical support from which 
their eyes and hands can do the work of reading and writing. It is 
difficult, for example, for a child to participate in a reading 
activity on the chalkboard when they can not keep their head/trunk up 
for long periods of time, or if they are easily visually distracted and 
can not ``tune out'' a visually ``busy'' classroom. Children with 
handwriting and visual-perception difficulties often find a way to not 
perform or complete reading and written assignments. Occupational 
therapy is an important service that can help meet the needs of 
children with reading and writing difficulties.
    AOTA believes that occupational therapy is an underutilized service 
that can meet and address children's learning, social and behavioral 
needs. As a result, many children who could benefit from occupational 
therapy do not receive services. This limited access affects both IDEA-
eligible students as well as students in general education. Often this 
limitation is due to a lack of understanding about how occupational 
therapy can help or because of perceptions that therapists only address 
``motor'' issues. Occupational therapy training is comprehensive and 
covers physical, psychological, social and pedagogical aspects of human 
occupation. Occupational therapy's understanding of human performance, 
or ``do-ing,'' can be invaluable in helping parents and school staff to 
understand the relationship between the physical and psychosocial and 
how these factors support or impede children's progress.
What is Occupational Therapy?
    Occupational therapy is a vital health and rehabilitation service, 
designed to help individuals participate in important every day 
activities, or occupations. Occupational therapy services address 
underlying performance skills, including motor, process, communication 
and interaction skills to assist in the correction and prevention of 
conditions that limit an individual from fully participating in life. 
For children with disabling conditions and other educational needs, 
occupational therapy can help them to develop needed skills within the 
context of important learning experiences and to perform necessary 
daily activities such as feeding or dressing themselves and help them 
get along with their peers at school. Occupational therapy services can 
help identify strategies for teachers and families to use to facilitate 
appropriate reading and writing development.
    Occupational therapy practitioners have the unique training to 
assist individuals to engage in daily life activities throughout the 
lifespan and across home, school, work and play environments. Services 
may be provided during only one period of the child's life or at 
several different points when the child is having difficulties engaging 
in his or her daily school occupations, such as when they are faced 
with more complex demands in the classroom resulting from increased 
emphasis and reliance on written output. Occupational therapy services 
may be provided in the family's home; at school; and in the community, 
such as day care and preschool programs, private clinics, and 
vocational programs.
    Occupational therapy evaluation determines whether an individual 
would benefit from intervention. The evaluation looks at the 
individual's strengths and needs with respect to daily life function in 
school, home and community life, focusing on the relationship between 
the client and their performance abilities, the demands of the 
activity, and the physical and social contexts in which the activity is 
performed. The findings of the occupational therapy evaluation inform 
the team of the need for intervention. Occupational therapy 
practitioners use purposeful activities to help individuals bridge the 
gap between capacity to learn and full and successful engagement in 
work, play, and leisure activities.
    For example, occupational therapy for infants and young children 
may include remediation of problem areas, development of compensatory 
strategies, enhancement of strengths, and creation of environments that 
provide opportunities for developmentally appropriate play and learning 
experiences. Services for the school-aged child are intended to help 
them be successful in school. Intervention strategies may focus on 
improving the child's information-processing ability, academic skill 
development such as handwriting, and ability to function in the school 
environment. For adolescents, the occupational therapy intervention 
focus is on preparation for occupational choice, improving social and 
work skills, and learning how to create or alter the environment to 
maximize their productivity.
    Occupational therapy is a health and rehabilitation service covered 
by private health insurance, Medicare, Medicaid, workers' compensation, 
vocational programs, behavioral health programs, early intervention 
programs, and education programs. AOTA represents 30,000 occupational 
therapists, occupational therapy assistants, and students. We thank 
you, once again, for the opportunity to submit our comments for the 
record.
                                 ______
                                 

    Statement of the National Center for Learning Disabilities, Inc.

    Mr. Chairman, on behalf of the National Center for Learning 
Disabilities (NCLD), I would like to submit testimony to the record in 
conjunction with the Full Committee hearing held on March 3, 2004. NCLD 
is a not-for-profit organization founded in 1977 that works to increase 
opportunities and improve outcomes for children and adults with 
learning disabilities (LD) by providing accurate information to the 
public, developing and disseminating innovative educational programs, 
and advocating for more effective policies and legislation to help 
individuals with LD.
    First, I would like to thank you and Representatives Castle, 
Miller, Woolsey, and Kildee for your support of The No Child Left 
Behind Act of 2001 (NCLB), which was signed into law by President Bush 
in January of 2002. Your unwavering bipartisan commitment to ensure 
that states and school districts intensify their efforts to improve the 
academic achievement of the nation's traditionally at-risk groups of 
public school students is historic and is deeply appreciated by parents 
nationwide. By protecting NCLB's new provisions for assessment and 
accountability that focus increased levels of attention on under-
performing groups of students to help close the achievement gap for 
students who have long lagged behind, you are ensuring millions of 
students will finally be seen through the lens that allows us to really 
know whether they are receiving a quality education and making expected 
gains.
    For the nation's 2.9 million students with identified learning 
disabilities (LD) currently receiving special education services under 
the Individuals with Disabilities Education Act (IDEA), the challenging 
new provisions of NCLB create expanded opportunities for improved 
academic achievement. As the IDEA definition of specific learning 
disabilities indicates, these students have neurological differences 
that are not primarily the result of mental retardation, emotional 
disturbance, or of environmental, cultural or economic disadvantage. 
Additionally, IDEA eligibility determination criteria require that 
students should not be determined to be a child with a specific 
learning disability if the determinant factor is lack of instruction in 
reading or math or limited English proficiency.
    These definitional and qualifying criteria establish students with 
LD as competent to participate in general education curricula and 
achieve at a proficient level when provided with high quality 
instruction by trained professionals as well as appropriate 
accommodations. Thus, students identified and served under the IDEA 
category of Specific Learning Disabilities must be provided full 
participation and equal accountability in NCLB.
    These additional findings serve to further support our position for 
full participation and accountability:
    <bullet>  The Twenty-fourth Annual Report to Congress on the 
implementation of the IDEA indicates that 45 percent of students in the 
SLD category spend less than 20 percent of their instructional time in 
special education, leaving the majority of their instruction in the 
hands of general education teachers.
    <bullet>  The majority of students served in the SLD category have 
their primary academic deficit in the area of reading, the same 
academic area at the core of NCLB improvement provisions.
    <bullet>  Nearly 30 percent of students with learning disabilities 
drop out of school (compared to 11% of the general student population). 
Two-thirds of high school graduates with learning disabilities were 
rated entirely unqualified to enter a four-year college, compared to 
37% of non-disabled graduates.
    <bullet>  The 2003 National Longitudinal Transition Study-2 reports 
that grades given to secondary school students with disabilities have 
been found to have no correlation to real academic functioning, 
misleading parents about how their child is actually performing.
    <bullet>  Most students with learning disabilities spend the 
majority of their instructional time in general education classes. 
However, only 60 percent of students with disabilities in general 
education academic classes have teachers who receive any information 
about the needs of those students and only about half have teachers who 
receive any input or consultation from a special educator or other 
staff about how to meet those needs.
    <bullet>  Despite having their disabilities identified earlier 
(from 7.3 years of age in 1987 to 6.5 years of age in 2001) two-thirds 
of secondary students with learning disabilities are reading 3 or more 
grade levels behind. Twenty percent are reading 5 or more grade levels 
behind.
    <bullet>  A 2002 survey conducted by Public Agenda reports that 69 
percent of parents of students with disabilities said many children 
could avoid special education if they were given help earlier.
    NCLD recommends that the Committee consider the following as you 
make the critically important legislative decisions and seek to 
influence regulation and implementation of NCLB:
    Access to the General Curriculum: Students with LD must have access 
to the general education curriculum, which must be aligned with the 
standards and assessments used to implement NCLB requirements, with 
appropriate accommodations.
    Teachers must be allowed the time and provided the resources to 
learn the new curriculum and adjust their pedagogy, and teachers must 
use those instructional practices that have been proven to be effective 
in improving outcomes for students with LD.
    Schools should effectively employ technology to enhance learning 
and increase student achievement by maximizing the use of universally 
designed technologies and assistive technology devices and services in 
the classroom.
    High-Quality Teachers and Paraprofessionals: Students with LD must 
receive instruction from highly qualified personnel prepared in 
current, validated practices tailored to their individual needs.
    Unfortunately, studies have shown that students with learning 
disabilities are often the victims of watered down curriculum and 
teaching approaches that are neither individualized nor proven to be 
effective.
    Teachers must be given access to ongoing professional development 
and should be prepared to use ongoing progress monitoring using 
curriculum-based measurement in order to accurately identify student 
progress and tailor instruction accordingly.
    Regular and special educators must work collaboratively as part of 
a coherent system in planning and delivering instruction.
    Conditions of Teaching: Teachers responsible for delivery of 
instruction to students with LD, both general and special education, 
must use validated, inclusive teaching practices including:
    <bullet>  instructional configurations that allow teachers to 
implement validated teaching practices such as modeling, scaffolding, 
elaborated feedback, etc
    <bullet>  coordinated instruction of skills and strategies across 
teachers, grades and schools
    <bullet>  alignment of instructional methods with curriculum 
demands
    <bullet>  grouping practices that reflect optimal teacher/student 
ratios.
    Access to Accommodations: Students with LD must be provided 
accommodations to ensure their participation in State assessments.
    Decisions regarding accommodations must be made by the student's 
IEP team or placement team and should be made on the basis of 
individual student needs, not on the basis of labels.
    The accommodations that students receive on State assessments 
should be similar to those routinely provided during classroom 
assessment. Neither the State Education Agency (SEA) nor the Local 
Education Agency (LEA) can limit the authority of the IEP team to 
select individual accommodations/modifications needed by a student with 
LD to participate in State assessments.
    Monitoring for compliance of these requirements should become part 
of the ongoing federal IDEA monitoring system.
    Appropriate Use of Test Results: Results of tests used to hold 
schools accountable for student achievement as required by NCLB should 
not be used solely to make high stakes decisions, such as grade 
retention and graduation, about students with LD.
    Since grade retention has been shown to contribute significantly to 
school dropout, administrators should ensure the use of multiple 
sources of information (such as coursework and portfolio assessments) 
about student performance for making decisions on such matters. This is 
particularly important given that ``out-of-level'' testing is not an 
acceptable means for meeting either the assessment or accountability 
requirements of NCLB for IDEA eligible students.
    Fair Treatment of Subgroups: NCLB's requirements for the 
disaggregation of assessment results for several subgroups of students, 
including students with disabilities, are designed to enhance school 
accountability for at-risk populations. However, the state level 
flexibility regarding the determination of minimum group size has led 
to a significant range of subgroup size. One survey of subgroup size 
across States found that the required minimum number ranges from 3 to 
200, with 10 being the most common.
    The U.S. Dept. of Education should closely review the results of 
such a vast range in subgroup minimums with particular attention to 
those States that have established relatively high minimums. While the 
purpose for subgroup minimums--to ensure statistically reliable results 
and protect student identity--are appropriate, states with artificially 
high subgroup minimums may escape the very accountability that this 
provision was intended to promote.
    Parent Involvement: NCLB creates an authority for funding of 
Parental Assistance Information Centers and Local Family Information 
Centers (LFICs) to provide training, information, and support to 
parents, and to individuals and organizations that work with parents, 
to implement parental involvement strategies that lead to improvements 
in student academic achievement. The information and training provided 
by these centers is critical to prepare parents to hold schools 
accountable for closing the achievement gap. These new centers should 
be monitored for their effectiveness in providing information related 
specifically to students with disabilities, including learning 
disabilities.
    Full Funding of NCLB and IDEA: Policy-makers need to appropriate 
the authorized funding levels for both NCLB and IDEA. States and school 
districts need these additional funds to accomplish the aggressive 
improvements required by NCLB. Without adequate funding targeted to 
effective practices, schools might be pressured to make decisions that 
will harm students with learning disabilities, such as limiting access 
to special education eligibility.
    Monitoring NCLB Implementation: The U.S. Department of Education 
should undertake aggressive monitoring activities to ensure full 
participation and equal accountability for students with disabilities, 
including learning disabilities, in NCLB. Additionally, studies should 
immediately be undertaken to track any unintended consequences of 
implementation that might adversely impact students with learning 
disabilities. Such attention can help to determine the need for 
additional guidance and technical assistance and minimize any negative 
impact resulting from implementation (e.g. reduced access to special 
education eligibility, lack of access to appropriate accommodation and 
to general curricula aligned with state standards).
    The National Center for Learning Disabilities believes that the new 
provisions of NCLB provide substantial opportunities for students with 
learning disabilities. However, given the serious sanctions schools 
face for not delivering sufficient academic progress, NCLD also 
recognizes the possibility that students with learning disabilities and 
their parents might be subjected to numerous obstacles. Many of these 
obstacles have been mentioned here, while others will only be 
thoroughly understood and identified as NCLB implementation moves 
forward.
    Mr. Chairman, on behalf of the millions of students and their 
families we represent at NCLD, I thank you for this opportunity to 
provide written testimony to the record on this important subject. We 
stand ready to assist you in any way as the discussion continues in 
Congress.
James H. Wendorf
Executive Director
                                 ______
                                 

    Statement of Rosemary King Johnston, Member, National Education 
                              Association

    Good Morning Chairman Boehner, Mr. Miller, Mr. Van Hollen, and 
distinguished members of the Committee. My name is Rosemary King 
Johnston and I am a proud veteran of nearly 30 years in the classroom. 
I taught my first class of children in 1968 - at a time we refer to as 
before the law. I taught primary age students with disabilities in 
Massachusetts for a few years and most recently taught in Harford 
County, Maryland for 18 years. I am a member of the National Education 
Association's IDEA Cadre--a group of 27 education practitioners from 
around the country that prepares and delivers professional development 
to our members specifically about instructing students with 
disabilities. I am also the parent of an adult with a disability and 
actively involved in decision making for a relative, who has multiple 
disabilities, including a significant cognitive disability. These 
experiences, both personal and professional, have given me a 
familiarity with the issues affecting educators, parents, and students 
with disabilities in the classroom and the community.
    As this Committee is aware, the amendments to IDEA in 1997 resulted 
in about 6.5 million students with disabilities having access to the 
general curriculum. This corrected a practice that was happening all 
too often in our nation's schools - that students with disabilities 
were being taught in segregated settings, regardless of their 
individual capabilities to be included in general education classrooms. 
As a parent, an educator, and an advocate, I absolutely agree with the 
principles embodied in No Child Left Behind that move us beyond IDEA 97 
and begin to focus on how we include students, including students with 
disabilities, in the same accountability system.
    Please allow me the opportunity to commend the Department of 
Education for its final reg lation regarding the assessment of students 
with significant cognitive disabilities under No Child Left Behind. As 
I understand it, the final regulation allows students with disabilities 
to be assessed in four different ways and clarifies that the student's 
IEP team makes the determination regarding the most appropriate 
assessment instrument for the student. While this is a step in the 
right direction, there are additional challenges that must be addressed 
at the school and classroom level.
    The first is reaching all educators with information explaining 
this final regulation. This will be no small feat, as many states have 
been slow to implement some of the assessment requirements of IDEA 97, 
let alone the requirements of NCLB for students with disabilities. Many 
states have still not developed alternate assessments based upon the 
state content standards. There is little professional development 
available to teachers about how to write an effective IEP that is 
aligned with state content standards and how to include students with 
disabilities in standardized tests, particularly if the child needs to 
be assessed in an alternate manner than the state's standardized tests. 
As a cadre member, I have conducted many workshops for my colleagues, 
but this requires a national, state, and local partnership to provide 
consistent and ongoing technical assistance and professional 
development.
    To meet part of this challenge, I'd like to suggest to the Members 
of this Committee something that the Department of Education could do 
to make it easier for classroom teachers and support professionals to 
understand the testing regulation. The Department could issue a desktop 
guide for educators which looks at some sample content standards for a 
particular grade level and illustrates what a regular assessment of 
those standards looks like, what an alternate assessment based upon 
those standards looks like, and what an alternate assessment based upon 
alternate standards looks like. The desktop guide should also include 
an explanation of the array of accommodations that should be available 
for students with disabilities, based upon their individualized 
education program (IEP).
    The second challenge we face is that many standardized tests do not 
include accommodations in their standard protocol, so any child that 
takes the regular assessment with an accommodation might not have their 
scores ``counted'' in a school's AYP measurement. For example, in many 
states, students who are blind had the state test read aloud to them. 
Their scores were invalidated because the test-maker did not include 
this as a protocol of the test administration. Accordingly, their 
scores whether they were 95, 100, or 75 were counted as zeroes in their 
school's AYP calculation.
    I have no doubt that many schools, prior to the Department's final 
regulation, didn't have the opportunity to ``count'' scores like these 
in their initial AYP lists when they identified schools in need of 
improvement. Therefore, I'd like to suggest that you urge the 
Department of Education to work with states to ensure that the AYP 
listings are corrected retrospectively in accordance with this new 
final regulation. Just as we seek to have students with disabilities 
included in the assessment programs, so should those students' scores 
be included in their school's calculations.
    I'd also like to suggest that this Committee urge the Department of 
Education to convene a meeting of education stakeholders and national 
test developers to discuss what assessments are currently valid and 
reliable for students with various types of disabilities. The goal of 
this discussion should be to encourage test makers to update their 
protocols and expand their test offerings, so that the assessment 
options in the final regulation are a reality, not just a hope.
    Finally, as the members of this Committee are aware, students with 
disabilities are a very diverse population, some with cognitive 
disabilities, some with physical disabilities, and some with behavioral 
issues. There are some children who are not significantly cognitively 
disabled, but who are currently performing well below grade level. The 
challenge with NCLB that is not addressed by the Department's final 
regulation is how to bring these students up to grade level in a way 
that is not punitive and does not damage the morale and reform efforts 
currently under way in many of our schools. NCLB gives no credit to a 
school that raises the level of achievement for this group of students 
by several grade levels, if that level doesn't meet the state's overall 
numerical target for all children. For example, what if a school 
improves the academic performance of a group of children-whether 
disabled or not from ``below basic'' to ``basic?'' This school may 
still be labeled in need of improvement, which may inadvertently 
stigmatize those students who didn't make the AYP target. Shouldn't the 
school instead be required to develop improvement plans for just the 
subgroups or individual students who are not proficient?
    And for students with disabilities, why not incorporate a growth 
model into their IEPs that requires the student begin to close his own 
achievement gap, that is, his current performance level with grade 
level expectations. The House's IDEA reauthorization bill (H.R. 1350) 
will require IEPs to be aligned with NCLB requirements, so 
incorporating a growth model into the IEP will require academic 
progress, but at a pace that is appropriate for the individual student. 
This individualized approach is the cornerstone of IDEA and can be made 
to work together with NCLB.
    In closing, I'd like to reiterate what I and my colleagues of the 
National Education Association believe. We believe in the goals of No 
Child Left Behind. We believe in holding schools accountable for 
improving results for all groups of children. And we believe in 
providing parents and communities more information about how their 
schools and all of their students are doing academically. But in order 
to make NCLB work for all students--and especially for students with 
disabilities--we must be able to look at growth in student performance 
over time, not just a snapshot from a test given on one day of the 
year. Each of our students deserves the most advanced and accurate 
determination of their achievement levels and I am concerned that the 
current interpretation of NCLB limits our schools' ability to document 
the real, every day progress made by students. Our students are more 
than just a test score and so are our schools. A few common sense 
changes to NCLB will not weaken accountability; they will make 
accountability work for every child. That's the goal of every educator: 
great public schools for every child.

                                 <all>

</pre></body></html>
